APPENDIX I
Lawyer Court Opinions

17

Case l:19-cv-00738-KBJ Document 4 Filed 04/29/19 Page 1 of 1

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

JOSEPH D. GILBERTI, JR.,

)
)
)

Plaintiff,

v.

)

Civil Action No. 19-cv-0738 (KBJ)

)

FEDERAL RESERVE SYSTEM, et al.T )
Defendants.

)
)

ORDER
For the reasons stated in the accompanying Memorandum Opinion, it is hereby
ORDERED that Plaintiffs complaint is DISMISSED without prejudice.

This is a final, appealable Order.

DATE: April 29, 2019
KETANJI BROWN JACKSON
United States District Judge

Case l:19-cv-00738-KBJ Document 3 Filed 04/29/19 Page 1 of 4

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

JOSEPH D. GILBERTI, JR.,
Plaintiff.

v.

)
)
)
)
)

)

Civil Action No. 19-cv-0738 (KBJ)

)

FEDERAL RESERVE SYSTEM, et al., )
Defendants.

)
)

MEMORANDUM OPINION
Pro se plaintiff Joseph D. Gilberts. Jr. has filed the instant complaint against 17
public and private defendants, including the Board of Governors of the Federal Reserve
System, Barack Obama, Nancy Pelosi, Mitch McConnell, the Environmental Protection
Agency, the Department of the Interior, and the Federal Emergency Management
Agency. (Compl.. ECF No. 1, at l.)1 Gilbert!* s complaint alleges that Defendants are
engaged in a “‘massive Florida Statewide, US Interstate and Global Elite" conspiracy
and are “hiding secret underground critical National Defense and US drinking Water &
Energy production Resources, stealing these Resources using the Department of Justice,
FBI & CIA employees, Seminole Tribe Casino owners, Power Corps like FPL, Duke
Energy with corrupt Florida and US Judge, Lawyers and Police Departments for

1 Page numbers herein refer to those that the Court's electronic case filing system automatically
assigns. In addition to the aforementioned groups and individuals, Gilbert! has also named as
defendants Mosaic Company, Mosaic Fertilizer, Inc., the Florida Department of Environmental
Protection, the Army Corps of Engineers, the Southwest Florida Water Management District, the Peace
River Manasota Regional Water Supply Authority, the Hillsborough County State Attorneys Office,
Moffit Cancer Centers, Luis Rivera II Trustee, and 72 Partners, LLC. All of the named defendant are
collectively referred to as '“"Defendants- in this Memorandum Opinion.

Case l:19-cv-00738-KBJ Document 3 Filed 04/29/19 Page 2 of 4

Foreign and Domestic Terrorist Groups.” (Id. f 1; see also id.

172 (asserting that

“Defendants .. are purposely causing higher cancer rates at the Tap and Bottled water
by hiding secret unique underground Rivers of Natural ready to drink and ENDLESS
Alkaline spring water”); id. H 179 (alleging that Gilberti “was kidnapped by
DEFENDANTS approximately 12 days after finding the secret underground Resource
and its abilities”).)2 Gilberti asserts claims for violation of the Racketeer Influenced
and Corrupt Organizations Act (“RICO”), violation of Florida1 s Pollutant Discharge
Prevention and Control Act, strict liability for abnormally dangerous activity, and
nuisance flflj 101-246), and he requests various forms of relief, including “requir[ing]
the Federal Reserve IMF Banks and Rothschild World Bank [to] halt all Interest
payments of over $600 billion/year to the American tax payer, [and] remove all $22
Trillion in US Debts” (id. 1247); “monies ... to pay for the 300mile Pipeline for THE
PEOPLE and the US Military to help install per Gilberti KT Hypothesis and US
Infrastructure plan],]” (id. ^ 249); and that “the homes that were foreclosed by
DEFENDANTS across Florida and the United Slates that would have increased in value
if this World Water knowledge was disclosed during 9-11 attacks when DEFENDANTS
knew, be returned to families or an equal home in value be provided in value paid for in
lull (A FREE Home)” (id. f 251).

2 The Complaint goes on to allege that Defendants are an
Enterprise plat] for decades nt Moffit Camer Centos, StL Joseph's and MoffittReseamnEh-USF on Tampa and many US and WorOd Universities hid critical US National
Defense and an ENDLESS underground Antioxidant Spring Water Resource with
NASA and EPA showing critical geological indicators that teach America and other
Nations how to find many more in Days, essentially ending World Hunger and many
reasons for migration and Wars.
(CompL v 2.)

2

Case l:19-cv-00738-KBJ Document 3 Filed 04/29/19 Page 3 of 4

Because Gilberti’s claims are patently insubstantial, this Court concludes sua
sponte that it lacks subject matter jurisdiction, and the complaint must be DISMISSED.
ANALYSIS
Federal courts are courts of limited jurisdiction, possessing “only that power
authorized by Constitution and statute.- KoMonen v. Guardian Life Ins. Co. ofAm..
511 U.S. 375, 377 (1994). “It is to be presumed that a cause lies outside this limited
jurisdiction, and the burden of establishing the contrary rests upon the (plaintiff).” Id1
(citation omitted). It is also clear that a federal judge may act sua sponte to dismiss
claims pursuant to Fed. R. Civ. P. 12(b)(1) for lack of subject matter jurisdiction, see
Hurt v. U.S. Ct. ofAppealsfor the D.C. Cir.T 264 F. App'x. 1, 1 (D.C. Cir. 2008),
including claims so “patently insubstantial” that no federal question suitable for
decision can be discerned. Best v. Kelly, 39 F.3d 328, 330 (D.C. Cir. 1994).
“Patently insubstantial” claims are those that are “essentially fictitious” and
“absolutely devoid of merit,” including “bizarre conspiracy theories[.]” Id. at 330-31
(quotation marks omitted); see also„ e.g.T Widtfeldt v. Internal Revenue Serv.. 317 F.
Supp. 3d 281, 283-84 (D.D.C. 2018) (dismissing as patently insubstantial a complaint
that made “vague and unsupported allegations of government-created epidemics,
“break-ins,* partisan conspiracies, and bribery”), affd, No. 18-5242, 2019 WL 479846
(D.C. Cir. Jan. 28, 2019); Hu v. U.S. Dep 7 ofDef, No. 13-5157, 2013 WL 6801189, at
*1 (D.C. Cir. Dec. 11, 2013) (finding that district court properly dismissed complaint
under Fed. R. Civ. P. 12(b)(1), where “its factual allegations were ‘essentially
fictitious,' involving a fantastic scenario of a vast government conspiracy to interfere in
appellant's daily life”), cert, denied 135 S. Ct. 90 (Oct. 6, 2014); Kaufman v. IRS, 787

3

Case l:19-cv-00738-KBJ Document 3 Filed 04/29/19 Page 4 of 4

F. Supp. 2d 27, 33 (D.D.C. 2011) (holding that court lacked subject matter jurisdiction
over complaint alleging “a wide conspiracy between the IRS and Defendants (many of
whom are judges, law enforcement or other government officials... ) [to] convert[]
Plaintiffs’ value sweat equity to private money by secretly issuing and trading bonds
and similar private instruments hypothecated against Plaintiffs7 future labor for
enrichment of Defendants, thereby subjecting Plaintiffs to involuntary servitude”
(internal quotation marks omitted)).
In the instant case, given the nature of the claims alleged, Gilbert! has failed to
meet his burden to establish that this Court has subject matter jurisdiction, even under
the “less stringent standards” to which federal courts hold pro se litigants. Haines v.
Kerner, 404 U.S. 519, 520 (1972). The allegations that Gilberti makes—e.g., that
Defendants have engaged in a decades long conspiracy to hide an endless supply of
underground drinking water for their own monetary benefit (see, e.g., Compl. ff 99100)—are clearly of the type that courts routinely dismiss as patently insubstantial
under Fed. R. Civ. P. 12(b)(1). See, e.g., Widtfeldt, 317 F. Supp. 3d at 283-84; Hm.
2013 WL 6801189, at *1; Kaufman, 787 F. Supp. 2d at 33. Thus, this Court will
dismiss the instant petition for this same reason.
A separate, final Order accompanies this Memorandum Opinion.

DATE: April 29, 2019

iCilanp
KETAMJI BROWN JACKSON
United States District Judge

4

USCA Case #19-5264

Document #1839199

Filed: 04/22/2020

Page 1 of 1

pttM J^iaies Court of Appeals
For The District of Columbia Circuit

No. 19-5264

September Term, 2019
1:19-cv-00738-KBJ
Filed On: April 22,2020

Joseph D. Gilberti, an Individual and Licensed
Prinfessional Engineer,
Appellant
v.
Federal Reserve System, Board of
Governors, et al.,
Appellees

BEFORE:

Tatel and Millett, Circuit Judges; Sentelle, Senior Circuit Judge
ORDER

Upon consideration of the petition for rehearing, it is
ORDERED that the petition be denied.
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:
Daniel J. Reidy
Deputy Clerk

USCA Case #19-5264

Filed: 04/22/2020

Document #1839202

Page 1 of 1

(ttnurt of JVppeals
For The District of Columbia Circuit

September Term, 2019

No. 19-5264

1:19-cv-00738-KB J
Filed On: April 22, 2020
Joseph D. Gilberti, an Individual and Licensed
Professional Engineer,
Appellant
v.
Federal Reserve System, Board of
Governors, et al.,
Appellees

BEFORE:

Srinivasan, Chief Judge, and Henderson, Rogers, Tatel, Garland,
Griffith, Millett, Pillard, Wilkins, Katsas, and Rao, Circuit Judges,
and Sentelle, Senior Circuit Judge
ORDER

Upon consideration of the petition for rehearing en banc, and the absence of a
request by any member of the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

Is/
Daniel J. Reidy
Deputy Clerk

USCA Case #19-5264

Filed: 03/03/2020

Document #1831437

ffinxitb

Page 1 of 1

xtes (JLcmrt nf JVppsals

For The District of Columbia Circuit

September Term, 2019

No. 19-5264

1:19-CV-00738-KB J
Filed On: March 3, 2020
Joseph D. Gilberti, an Individual and
Licensed Professional Engineer,
Appellant
v.
Federal Reserve System, Board of
Governors, et al.,
Appellees
BEFORE:

Tatel and Millett, Circuit Judges; Sentelle, Senior Circuit Judge
ORDER

Upon consideration of the motion to stay proceedings, the motions for summary
affirmance, and the opposition thereto, it is
ORDERED that the motions for summary affirmance be granted and the district
court’s order be affirmed. The merits of the parties’ positions are so clear as to warrant
summary action. See Taxpayers Watchdog. Inc, v. Stanley. 819 F.2d 294, 297 (D.C.
Cir. 1987) (per curiam). The district court correctly dismissed appellant’s complaint
because it alleged no plausible facts that would entitle him to relief. See Ashcroft v.
Iqbal. 556 U.S. 662, 678 (2009). It is
FURTHER ORDERED that the motion to stay be dismissed as moot.
Pursuant to D.C. Circuit Rule 36, this disposition will not be published. The Clerk
is directed to withhold issuance of the mandate herein until seven days after resolution
of any timely petition for rehearing or petition for rehearing en banc. See Fed. R. App.
P. 41(b); D.C. Cir. Rule 41.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

Is/
Manuel J. Castro
Deputy Clerk

APPENDIX II
Permit Correspondence

UNITED STATES DISTRICT COURT
FOR CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
Civ. No.
JOSEPH D. GILBERTI, JR, P.E.. an
Individual and Licensed Professional Engineer.
COMPLAINT
Plaintiff,

DEMAND FOR JURY TRIAL

v.
CENTER OF DISEASE CONTROL (CDC).
WORLD HEALTH ORGANIZATION-PAN
AMERICAN HEALTH ORGANIZATION (WHOPAIIO), SENATOR RICK SCOTT,
DEPARTMENT OF JUSTICE, UNITED STATES
DISTRICT COURT FOR THE DISTRICT OF
COLUMBIA, US MIDDLE DISTRICT COURT
OF FLORIDA, US DISTRICT COURT OF
APPEALS 11™ CIRCUIT, THIRTEENTH
JUDICIAL CIRCUIT COURT OF FLORIDA,
TWELFTH JUDICIAL CIRCUIT COURT OF
FLORIDA, SARASOTA CLERK OF COURT,
SEVENTEENTH JUDICIAL CIRCUIT COURT
OF FLORIDA, SECOND DISTRICT COURT OF
APPEALS FLORIDA, FLORIDA DEPARTMENT
OF LAW ENFORCEMENT, FLORIDA
DEPARTMENT OF HEALTH, FLORIDA
DEPARTMENT OF ENVIRONMENTAL
PROTECTION, DEPARTMENT OF
EDUCATION, PARKLAND HIGH SCHOOL,
BROWARD COUNTY SCHOOL BOARD,
MARK OBER, PAM BONDI, FLORIDA STATE
ATTORNEY ASHLEY MOODY,
HILLSBOROUGH COUNTY STATE
ATTORNEYS OFFICE, FLORIDA BOARD OF
ENGINEERS, BROWARD COUNTY STATE
ATTORNEYS OFFICE, ATTORNEY
CHRISTOPHER SHAW, HILLSBOROUGH
COUNTY PUBLIC DEFENDERS OFFICE,
DEPARTMENT OF CORRECTIONS, 72
PARTNERS, EEC.
Defendants.

CIVIL RIGHTS VIOLATIONS. FRAUD ON THE COURTS. RACKETEER
INFLUENCED AND CORRUPT ORGANIZATION ACT rRICO”)
1

Plaintiff JOSEPH D. GILBERT! JR., P.E., hereinafter “THE ENGINEER,” is an
Individual, filing for a complaint against DEFENDANTS or “Enterprise", allege as follows:
NATURE OF THE ACTION
This is a 42 U.S. Code § 1983 federal civil rights case under the First and Fourth
Amendments of the United Stales Constitution as applied to die States under die United States
Constitution’s Fourteenth Amendment for the Defendants’ individual and collective personal,
malicious, and unlawful violations under color of state law7 of Plaintifts' individual and collective
constitutional rights to tree speech and protection against unreasonable search of Plaintiffs
bodies as well as state tort claims for civil conspiracy. See GUberti vs Federal Reserve, et al.
headed to US Supreme Court for Racketeering by Florida Department of Justice. State and US
Judges, Florida Department of Law Enforcement, Florida Dept of Education & US Leaders
being paid by large foreign corporations such as but not limited to Israel Chemical LTDiMosaic
Phosphate of Florida hiding Global Water & Medicine Resources with EPA and Federal Reserve
BoardfCentral Banks. This Resource has reading never seen on Earth that affects Medicine and
National Defense.
freest:

6 = 07

<

(trsjt .}•

Edit

11 was on your money th»e entire time. Oan you see
the 22 eyes and the face mask.. 2020.

ClD
2

This mask has been on the $20bill since 2003 and is part of the same Smith-Mundt
Modification pattern used to subdue Engineer Giiberti with various Terrorist attacks shown in
this complaint and multiple filed related cases throughout Florida and Washington DC.

Defendants are working with U.S. Federal Reserve, EPA, FEMA, CDC, WHO,
Hollywood Producers. Israel Mosaic Phosphate, corrupt Judges, Court clerks, law-firms, Florida
leaders, EPA and foreign Terrorist to subdue Plaintiff who found a hidden underground Natural
resource in Medicine, Energy and Water Supply production and National Defense. Defendants
are working in a Racketeering Enterprise with Leaders, agencies and Land Developers to destroy
water supply and Americans with higher rates of Cancers, Viruses and Diseases as well as
destroying the Environment. Fish & Wildlife, Tourism, Jobs and Macroeconomic growth in
Florida, America and abroad. This unique property has Geological indicators that show
America how to find more in day s and create millions of Jobs, new medicine and economic
sustainability.
Below is a diagram of major concerns by thousands of citizens who asked Plaintiff to be
die West Florida expert at Desoto County against this Enterprise and Mosaic Phosphate and
Plaintiff was approved for said expert to protect millions of Floridian and Americans from this
Enterprise.
Defendants committed these unlawful violations of Plaintiff’s constitutional and state
rights under color of state law in bad faith and with malicious purpose in reckless, wanton, and
willful disregard of Plaintiff’s human, safety, and property rights.
A Judiciary without honesty has little chance of executing its moral and constitutional
duties, no matter how many rales of ethics exist. This is especially true in America, where the
judiciary is afforded wide discretion. Every decision left up to the discretion of a judge—is a
potential opportunity for corruption. Today, oil, gas, minerals, drinking water and natural
resources and their entitlements are often decided by judges making decisions without the ability
3

to understand the long term engineering and infrastructure affects of hiding massive drinking
water resources of the health quality. The Judges are often influenced by local Corporations.
Law-firms and bribes if the stakes are so economically high in the region, no salary could
compare to the monetary corrupt bribes or offers.

©ra(XNBCL®
ij©) 'vtxj® (©©cy^ ©c^ 13^1^20©©
aiMfife'
i.r-i"

Jirs i. C ilF>**l&lfc4*avW!*4b

it Mi y

'

«

"nS) \

*

\ •v*'

*
T-

X..

.

■

’SjQnJdt'} Tjnlfu H
SrtS^-rtfC ^3jiT|lt>rLf^Viyrth,

t-. «t‘U-j&w* wuiii v '•

* '

4T

l

K

<^UjrMS|»riy

£D Otmn*
,)i O^witeiwii pntttw* mmw»
t . 'uinktev tfiwtfwK <W
I - 'l. [_jUeMie«MiM.My«ann»
i,
CtwptuH ttmOiUrf
} ■■'■ » feeder fl*m to tneGwft
» * OeeW v*\ St-**rm

-

'■

1

J%g.

V
X

\

iVOilOAl V , *CW>::
itlii*

*-

_

-32anj2C
ft vQJ,U. VjiXtJ 0>

iU*?

J'**

v
.1

■jk

'

©

'i

IKIfr smftts

SJ0M11I]rr&j

. - itinT^na
syz&iuu«sy
^ d*IJ JUtrf.-oJwdt*

/

?■

*»'.j

^

,-.

_r*

<

~-Vr'
-•

V

v

H.
ii.

>_

* ?

jig

.■-

■

<^T[

fr •'Vr-lfv w> -ff-tesspy®

^;cf3LU,
ii>-.

•EUfflia

J

...

din*vyj!i»rt' iLixq'jxr {*a± Miiuiu,.

■

drills.

j^umran ss? (E aio &e©-:*.._>

)iV*V‘

irl^W

\
jf
if

•>J> %9i

Wiwlbajj
l.!T-1tl«i?V ’ rf
yttlJIISXt.-:1.1V/
(Jui^ni ,,a ?«.«* XhmuZnK

■^_

li*Ui< it<c.< rijir

*

N
^7-'
i’.

mm
TnjyT^i'iTi

.Ium.i.
-yCi

i?/

f

fTow

IF^cmz 1 — Israel Chemical LTDMiosatc destroy' massree surface rivers used lor Raw Diimkinrag
Water Resources, Economy, Fish & Wildlife at West Florida Rivers with Phosphate mining with
Defendants and Agencies in Racketeering Enterprise to fill Caeeer Cemers with Treated Water vs Gilbert!
Endless Alkaline spring water.

4

The case involves the Defendants in a massive Enterprise which consist of Judicial
courts. Judges, State attorneys, public defenders. Police officers. Utility directors, water and
health agencies, hard money loan sharks, local law-firms and developers who have teamed up
against THE ENGINEER to steal a hidden underground resource which more valuable that Gold,
in an effort to hide it and its knowledge to find more like it from THE AMERICAN PEOPLE;
and keep cancer and diseases rising in the region from Water supply being treated from polluted
rivers amd corporate dumping al tfae Taps.
By this suit, Plaintiff seeks federal district court review of the federal and Florida
constitutionality of Defendants' actions for both on their face and as applied, which:
(i)

Deny an impartial tribunal;

(p)

Violate United States Code, Tide 4§§101 and 102;

(ili)

Violate Florida Statute §876.05(1)

(IV)

CRIMES OF GENOCIDEAEUGENICS
GeneralAssembly resolution 260A(III) of9 December1948Entry intoforce:
12 January 1951, in accordance with article XIII

Having considered the declaration made by the General Assembly of the United Nations
in its resolution 96 (I) dated 11 December 1946 that genocide is a crime under
international law, contrary7 to the spirit and aims of the United Nations and

Iby

•LtjMUinimijvt

the civilized world, Recognizing that at all periods of history genocide has inflicted great
losses on humanity , and being convinced that, in order to liberate mankind from such an
odious scourge, international co-operation is required, Hereby agree as hereinafter
provided:
Artklel
The Contracting Parties confirm that genocide, whether committed in time of peace or
in time of war, is a crime under international law which they undertake to prevent and
to punish.

Article II
In the present Conwntion, genocide means any of die following acts committed with
intent to destroy, in whole or in part, a national, ethnical, racial or religious group, as
such:
(a) Killing members of foe group;
(b) Causing serious bodily or mental harm to members of the group;
(c) Deliberately inflicting on foe group conditions of life calculated to bring about its
physical destruction in whole or in part;
(d) Imposing measures intended to prevent births within the group;
(e) Forcibly transferring children of foe group to anofoer group.
Article III
The following acts shall be punishable:
(a) Genocide;
(b) Conspiracy to commit genocide:
(c) Direct and public incitement to commit genocide;
(d) Attempt to commit genocide;
(e) Complicity in genocide.
THE ENGINEER brings this action against DEFENDANTS for a Violation of RICO, 18
li-S-C. § 1961-1968, et seq (a), (b), (c) and (d). THE ENG

m*

seeks damages from

DEFENDANTS who are working in a massive Enterprise tied to water supply eugenics across
Florida, USA and the World with the World Health Organization in MOU agreements with the
Enrironmeutal Protection Agency, FDEP in Tallahassee at foe Florida Marjorie SSttaeman
Douglas State Revolving Fund, 2001-2010 Florida Forever Trust Funds, ESLAPP in Sarasota
Florida. Global Cooperative Agreements of combined Environmental and Global Healthcare
6

sustainability crimes by essentially hiding and/or stealing secret underground critical National
Defense Resources of 'Blue Gold'____ or ready to drink Alkaline Spring Water from Earth not
Manmade.
The Defendants with other Racketeering Enterprises are manipulating tire Department of
Education and Courtroom Judges, Police, Fire and University personal and systems to subdue
Appellant timed with civil cases, permitting, investment proposals to hide critical a unique
drokirag water and resource 2000ft below” tire plaintiffs Sarasota land, verified by third patty
consultants.
This unique resource was hidden 50yrs by NASA and EPA, to stall new energy
production resources and new science to depopulate Humanity, increase costs, pollutions, and
attack THE ENGINEER from exposing the knowledge and resource to THE PEOPLE of the
United States of American and Florida; preventing his ability to Due process in courtrooms,
taking his 1st, 2nd, 4th, 5th, 6th, 8th and 14* Constitutional Amendments with multiple Judges in
multiple jurisdictions working together to hide the US Resource for foreign corps like Israel
Chemical LTD, Mosaic Phosphate and more; retroactive with the unique resource discovery. AJ
full blown attack on the Engineer, his clients, his family, children, bank accounts, reputation and
business has been taking place continuously from 2011 to present time, with fake AR-15 emails
created by the Tampa State Attorney office and ex-public defenders. .
Defendants are attacking a National Security resource and future Blue Gold pipeline
project that produces millions in profits per day. While damaging millions of US Citizens with
lower level of service water supply from poor raw drinking water resources that are heavily
treated with chemicals vs. natural endless alkaline spring water; causing higher Cancer Rates at
the home and business taps, bottling plants, parks, schools, and more. While increasing the
possibilities of Viruses like Zika and Coroaavirnv hiding answers to Vaccines, medicine
solutions, energy solutions, and new technologies by hiding secret underground critical US
7

Resources such as this resource with never seen endless new Water mixtures that are unique to
Human health

JURISDICTION AND VENUE
Plaintiffs faring this action pursuant 42 U.S.C. § 1983 for violations of civil rights under
the First, Fourth, and Fourteenth Amendments to the United States Constitution.
1.

This Court has subject-matter jurisdiction over this matter pursuant to 28 U.S.C.

§ 1331 (federal question) and 28 U.S.C. § 1343(aX3) (civil rights); 28 ILS.C. § 1367 provides
supplemental jurisdiction over the state law tort claims that arose from the same common nuclei
of facts.

2.

Jurisdiction of this Court is invoked pursuant to (i) Article HI of the United States

Constitution, (ii) the provisions of 28 U.S.C. §1331, §1343(a)(3) and (4), §2201 and §2202 and
42 U.S.C. §1983, and (iii) the provisions of 28 U.S.C. §1367.
3.

Venue is proper pursuant to 28 U.S.C. § 1391.

4.

At all material times, Defendants committed these unlawful violations undo- color

of state law in bad faith and with malicious purpose in reckless, wanton, and willful disregard of
Plaintiffs’ human, safety, and property rights.
5-

These constitutional law violations are “capable of repetition, yet evading

review.” Roe v. Wade, 410 U.S. 113, 125 (1973) (citing Southern Pacific Terminal Co. v. ICC,
219 U. S. 498, 515 (1911), Moore v. Ogilvie, 394 U. S. 814, 816 (1969), Carroll v. Princess
Anne, 393 U. S. 175, 178-179 (1968), United States v.W.T. Grant Co., 345 U. S. 629, 632-633
(1953)).
6.

THE ENGINEER was kidnapped timed with tine FDEP SRF Marjory St

an

Douglas funding application just 17days prior to the Marjory Stoneman Douglas Shooting in
Broward where 17 were shot and 17 wounded in game tied to Smith-Mundt act whore
Hollywood in Los Angeles sells stories to Government to sells Manufactured news for their
8

Propaganda agenda to attack other nations and now America since its Congressional approval
under Obama in 2012 via the H R. 5736 The Smitb-Mundt Modernization Act of 2012, initialled
days after our World Resource find by Tampa Central command and this Florida Enterprise of
Terrorist civil servants and Developers tied to huge Corporations like Walt Disney owners,
Seminole Tribe Casinos, Federal Reserve Bank and corrupt Judges in land grabs and cohersion
on tax base grants for their Enterprise which includes a front called 72 Partners LLC and BFSL
Holdings LLC.
PARTIES
PLAINTIFF
7.

Plaintiff Joseph D. Gilbert!, Jn, P.E. 1

[filer “Plaintiff (aka THE

ENGINEER) is a Professional Licensed Civil Engineer and Land Consultant located in Lee
CtMMy. Florida with a mailing zip code of33931 whose President, of LandTech Design Group.
Inc. with access to land in Sarasota County with a critical underground Aquifer with medicine
changing readings that are capable of delivering Antioxidant Spring water supply to over
lOmillion taps from Tampa to Miami.

See Plaintiffs Engineering, Consulting and

whisfldjflownig website at https://gilbertibluegoId.com/- Plaintiff is a property owner who has
access to a secret hidden endless underground spring river approximately 2000ft below his
Ranch, tied to a much deeper Global vast Ocean from geological and water quality indicators
shown in public record engineer reports, permit petitions, consultant

tj

ions and third party

11 k 11

lab results.
DEFENDANTS
8.

Center of Disease Control (CDC) - Centers for Disease Control and Prevention.

1600 Clifton Road, Atlanta, GA 30329 — The CDC has hidden this resource with the Enterprise
since the first permit submittals in 2012 and 2013. They regulate pathogens in Water supply and
diseases and purposely hid this resource and purposely faked a Coronavirus Pandemic with die
9

Federal Reserve, Media and this Racketeering Enterprise of Florida civil servants and more who
are hiding this World Medicine production for the Rich to kill the Poor and Middle Class with
arsenic treated waters for years. They all knew since 1991 and killed millions of People and now
the mask game.
9.

World Health Organization — Pan American Health Organization (WHO-

PAHO) - The World Health Organization works to promote Clean Water help protect the Health
and Welfare of Humanity with die EPA and other Matrons. The EPA and WHO-PAHO have
worked together to hide this Global Water and Thermodynamic knowledge from Humanity to
create a health crisis and unneeded Vaccines with Bill Gate Foundation. They both have worked
together with Defendants and Florida Leaders to hide this Resource and Global Water
knowledge under Plaintiffs land for years with Courts, Judges, Police, Leaders, Media and EPA.
10. Florida Department of Environmental Protection (FDEP) — Adopted in 1983
with later revisions of Rules for Water supply and Resource permitting regulations, pursuant to
the EPA Clean Water Act of 1974. Critical terrorism acts are timed with FDEP emails within
hours, submittals within days, with civil servants as witnesses within die State of Florida
available, as FDEP is hiding endless spring waller to millions of taps for decades causing cancer
and disease rate increases. Website can be found at https://floridadeD.gov/
11. Thirteenth Judicial Circuit, Hillsborough County. Hillsborough County State
attorneys office, with Public Defenders office worked with Judges to and falsified police reports
to

subdue

the

Engineer

timed

with

land

cases

in

other

court

jurisdictions. '

https://www.fliudl3.org/
12. Twelfth Judicial Circuit,, Sarasota Counts7. Hillsborough County Judges worked
with Sarasota County clerks and other court Jurisdictions to hide trial notifications, subdue the
ENGINEER, while harboring the timed Terrorist acts filed on record and falsified police reports
to with land cases, illegal mortgages, rotating judges, retired judges for Trials, to hide the US
10

Resource and timed Terrorism that subdued die Engineer and stalled the cases and projects.
https://www.iudl2.flcourts.org/
13. United States District Court for the District of Columbia, Washington DC.
Judge Ketanji Brown Jackson avoided all discovery, harbored Terrorism acts timed with attacks
on US Resource with Lawyers. Media and School Board j

la to subdue the Engineer

timed with land cases in other court jurisdictions. All other courts and law-firms are piggy
backing on this Order that was another attack on THE ENGINEER, the US Resource and
millions of Floridians, their children in growth, macroeconomics this resource provides.
https://www.dcd.uscourts.gov/
14. 72 Partners LLC is a Florida Limited Liability Corporation group of west Florida
bankers, real estate and appraisers consisting of Lee Pallardy, Thomas Howze, Kenneth Harrison
and Lawrence Hall or are also named individually on the complaint. The website can be found at
https://www.leepallardvinc.com/.

Kenneth Harrison off 72 Partners LLC leases land from

Southwest Florida Water Management District at the Peace River RV Griffin Reserve since
1974, sits on the Babcock Ranch board where both entities have targeted THE ENGINEERS
land and bis clients land Daughtiev fin decades with die Lisa and Kimberly Carlton (Sarasota
Chief Judge), at Carlton Ranch where the Carlton Water Treatment Plant exists next to this
resource. Kenneth Harrison has been a neighbor of this land for decades and knew of the US
Resource before THE ENGINEER and the Hurricane Charlie disaster recovery funds installing
RV Griffin, 6 billion gallon open to the sky Reservoir in Desoto County.

IV. FACTUAL- ALIFGATIONS
14.

Plaintiff is located and does business within the State of Florida and United States

ofAmerica.
15.

Defendants are located and do business within the State of Florida and United

States of America.
11

16.

All defendants are State actors, and as such, the United States Constitution

governs their individual and collective actions when acting on Tax paver behalf to protect the
public.
17.

Defendants formal and informal policies, written or unwritten, allowed,

encouraged or enabled Defendants to violate Plaintiffs’ individual constitutional rights and
conspire to commit these constitutional violations.
18.

This issue is a matter of great public concern. A Global hidden underground

Drinking Water, new Medicine and Energy Resource has been found and is being attacked by a
pool of Judges, Agency personnel, law Finns and Court Circuits in West Florida and
Washington DC to hide tins critical National Defense Resource from America for foreign owned
corporations infiltrating Florida Politicians, having a great impact upon Florida students, their
families, and Florida’s citizenry.
19.

Defendants retaliated against Plaintiff who was exercising his free speech rights

when Defendants in a Racketeering Enterprise to sell bottling. Cancer Centers and
Pharmaceutical medicine due to Low Level of Service drinking water supply at the tap from very
low level of Service RAW WA FER RESOURCES. Defendants attacked his land in Sarasota,
his family, Ms clients and projects when Plaintiff was whistleblowing the US Resource with
permitting submittals, mass emails, and social media posts in an effort of Redress of Grievance.
20.

Defendants illegally with falsi fied police reports involving AR-15 death threats to

Plaintiffs 1st, 2nd, 4*, 5th, 6*, 8® and 14th Amendment rights under the United States
Constitution.
21.

Plaintiffs continued to suffer Defendants’ individual and collective retaliation

for voicing their concerns over this unconstitutional forced low level of service of water supply
causing higher cancer rates, diseases and viruses to millions of Americans in the West and South
Florida Regions.
12

22.

These deprivations under color of state law are actionable under and may be

redressed by 42 U.S.C. §1983. Plaintiffs will seek their attorneys* fees and costs under 42
U.S.C. §1988 if and when they prevail.
V. COUNT1 - CIVIL RIGHTS ALLEGATIONS
23. Plaintiff sent files, plans, and readings with email copies to several recipients, local
agencies, County attorneys, media and consultants, to expose this World hidden underground
Resource by attaining transparency, and properly exercising Ms First Aj
24.

rights.

Plaintiff’s civil rights, freedom, projects, incomes were attacked by Defendants,

their court influences. Judges, local police, law firms with fake police reports and time terrorist
attacks to raise bonds timed with civil land cases to subdue him. These court docket games with
software turnover in other county circuits, timed with Judges and law-firms, who are all
harboring die terrorism and hiding access to secret underground endless Oceans of unique spring
to millions of Taps and Earth Science critical to Humanity. See Timeline of Events below:
CONFIDENTIAL TIMELINE OF FLORIDA TERRORIST ACTS BY CIVIL
SERVANTS AMP LEADERS
TIMELINE CONFIDENTIAL AND SUBMITTED SEPERATELY IN CONFIDENCE
FOR THE COURT IN A PRIVATE VAULT AND HAS BEEN COPIED TO PRESIDENT
,fFT,i> pr ITm/pTO*©1
XJfX. A' J
JURMl/'Ji.wjLlt.
ATTOKENEY GENERAL ” A AAV* A mm
DUE' TO
CORROUPT FLORIDA AND US LEADERS, JUDGES, ENGINEERING FIRMS, CIVIL
SERVANTS AND LAWYER NAMES INVOLVED IN US TERRORISM AND
EUGENICS OPERATION WITH FEDERAL RESERVE BANKS, CDC, EPA, NASA,
WORLD HEALTH ORGANIZATION, FEMA AND CORPORATE LEADERS AND
S22SEE5G WATER-ENVSROMENTAL FUNDING AGENCY BOARDS
V* l *

25.

#

1A I >\1 yk K 7

Below is an rough indicator of the unbelievable corruption that took place in front

of everyone while they watched in fear just like the masks for the FAKE CORONVDtUS
PANDEMIC by the same group and more.
2011 year
June - hired Greenberg Traurig through help of Scott Freyre who was going to
help us get funding from hard money note that was stealing the land for pennies
with Foley Lardner attorneys who are head ofFlorida Waterforum
13

August - fired Greenberg due to friends 72partners taking note 12 days into
litigation and the fact they are Israel Mosaic Phosphates chief council doing
Political mining compacts with Gov Scott and west Florida countiesfrom Sierra
vs ACOE litigation for phosphate mines from Tampa to Lee County. Sarasota
never signed due to Lee county for 57million as I have the only mining permit in
phosphate district in Sarasota with deep well two essentials for fertilizer plant.
Mosaic is largest phosphate and potash carp, in world controllingfarming with
Monsanto and allfoodproduction in World

2012 year
April - Found water at: deep well and sent plan showing spring water to Peace
River WTP and R V Griffin reservoir to all leaders in mass email Ross Morton of
SWFWMD ombudsman responded 52minutes later to block staffcontact.
July 4th Holiday - Arrestedfor cyberstalking or really 1st amendment rights for
wMsdeblowing water resource with plans next to a 5county polluted Peace River
Manasaita wader plant in Desoto county pumping to Sarasota, Charlotte,
Manatee, Desoto and now Lee. Victims were three Greenberg Traurig Lawyers,
Dave Weinstein, Vin Marchetti and Don Crawford Win was friends with Scott
Freyre and used to wartfor Foley Lardner. Dave Weinstein is chiefcouncil for
Mosaic for decadesl Major conflict against USA under attack by foreign
corporations with Nestle and more.
August - submitted S10,300 application and fee to FDEP in Sarasota and Ft
Myers for Pipeline andfiltration to bring millions Alkaline Mineral spring water
to region, still didn’t realize about the real value and uniqueness ofunderground
RIVER and meteor stuff.
Presented to Peace River on Aug 1st on aquifer with spring water to four county
commission. Public record
December - Florida pass HB1099 new cyberstalking laws to felony issues while
Greenberg changes windows to bullet proofwith Board ofEngineers to make me
look like a terrorist
2013 year
March 27presented to City ofNorth Port in Sarasota with kids on spring water to
taps in six months construction as they get isfirst as they are six miles away, sent
plans to Sarasota and Vance churches and all hospitals.
April 3rd - Jim Murray ofAmps Well Maintenance comes to site and says emails
being deleted offhis computer infront ofhis eyes within seconds ofsending email
ofwater readings ami story. He said cleanest water on earth ever seen over 3J of
world- after drilling Oil SOyrs. says we are nexttoatitledplatformfrom Yucatan
meteor impact
14

April 15-1 wrote hypothesis, emailed FDEP in Leon County Tallahassee FDLE
Torch run with mass email at 10:54 am and Boston Bomb blows 5hrs later and
my $500 bond for a misdemeanor with Greenberg Lawyers skyrockets to
$300,000 and surrounded by secret service and helicopters at Hillsborough
County government building with Secret Serviceflying all over the building with a
huge ACT by Cops; Judges and Hillsborough County staff, leaders and Pam
Bondi.
2014 to 2020years
Detailed in Vault of timed Terrorism with FDEP funding on Parkland shooting.
Cousin Cory Gilberti setup by Broward Cops and State Attorney with actual AR15 shooting of entire building to attack myfamily. Then he gets PTl and dropped
charges, hidden by the news within months of Parkland shooting, while THE
ENGINEER is attacked with FABRICATED AR-15 EMAILS by the Hillsborough
State Attorneys Mark Ober. Pam Bondi, Ashley Moody and Andrew Warren.
Forced to take a Guilty plea just to save the land control to get the permitting
after being kidnappedfor the 23 time by Tampa and Lee County corrupt Judges,
Cops and more
THE ENGINEERS children were attacked by School teachers and chocked to scare his
family away and. create local dissention andfear with Cops and corrupt Florida leaders
and civil servants.
Yet not one Leader, Engineer or person will dare test this water and its capacity that now
has a 9-mile transmission FDEP Permitfinalizing with Jon Iglehart the Director in Fort
Myers, who is a witness with maty others of this US TREASON by hundreds ofLeaders,
Judges, Cops, Media groups, Large developers, Bottling Corps, Big Pharma groups,
General Electric, Dow Chemical, Mosaic Phosphate, Monsanto seed, Hospital Boards
andlawyers.

Why is this Mask on the $20biUfor the past 17yrs hidden at the 2020RNC and DNC by
all Leaders, Federal Reserve and Mediajust like this World Resource and knowledge?

25.

Plaintiff found the secret underground resource and started whistleblowing and

permitting the pipeline, resource and project, suddenly falsified threats by attorneys and police
started with cyberstalldng arrest tied to Greenberg Traurig Law, Dave Weinstein, chief council
for Mosaic Phosphate next door in dm Phosphate district Mr. Weinstein was fired from the
project due to conflict cases with Mosaic, Sierra vs Fort Meade, 11® District courts and Sarasota
courts due to the resource and phosphate mining permits owned by THE ENGINEER and
political mining compacts in west Florida.
15

26.

Plaintiff was illegally subdued with bond hikes using new cvberstalking laws,

timed wMi civil and county and court circuits away to stop the exposure and permitting.
27.

Plaintiff as a Professional Licensed Civil engineer permitted the resource and

pipeline connections adjacent to a 5 County regional Water Supply infrastructure while
whistleblowing die location, characteristics of the underground river and its ability to produce
unique spring water to over lOmillion taps from West Florida to South Florida, solving Florida
Water Wars.

This effort was intended for a vast investigation to avoid emails to select

recipients- many of which were public officials-with the specific goal of informing these
officials of an illegal political conspiracy, and persuading them to enforce laws within their
jurisdiction. Therefore, Plaintiff is exercising his constitutional right to petition the government
for a redress of grievances.
The right to petition the government far a redress of grievances is one smeh
constitutionally protected activity, and one of the most precious liberties
"safeguarded by the Bill of Rights." United Mine Workers of Am., Dist. 12 v.
Illinois Stale Bar Ass'll, 389 U.S. 217,222, 19 L. Ed. 2d 426, 88 S. CL 353
(1967). The history of the right to petition for the redress of grievances is
ancient, stretching back in time to before die Magna Carta, see AJD. Bedell
Wholesale Co., Inc. v. Philip Morris Inc., 263 FJd 239,252 (3rd Cir. 2001),
to a petition by English leaders in 1013 to "Aethelred the Unready." J
Norman B. Smith, "Shall Make No Law Abridging ... An Analysis of the
Neglected, but Nearly Absolute, Right of Petition, 54 U. CIN. L. REV. 1153,
1154 (1986). The rigjhit to petition has evolved to ids current place in tooth tire
federal and Florida constitutions, which protect the right of the people to
petition the government for redress of grievances. See U.S. Const., amend. I.;
Art. I, § 5, Fla. Const.
THE ENGINEER’S SPEECH IS PROTECTED BY THE FIRST AMENDMENT. BECAUSE IT IS POLITICAL,
SPEECH. ADDRESSING A MATTER OF PUBLIC CONCERN - TAKEN BY THE DEFENDANTS IN A CORRUPT
RACKETEERING ENTERPRISE

28.

The First Amendment to the United States Constitution guarantees freedom of

speech, the right to peacefully assemble, and the right to petition the government. Those rights
are protected from infringement by stole governments by the Due Process Clause of the
Fourteenth Amendment to die United States Constitution. Further, under Article 1, Section 4, of
the Constitution of the State of Florida, citizens are guaranteed freedom of speech.
16

29.

The First Amendment protects speech even when its subject or manner of

expression is uncomfortable and challenges conventional religious beliefs, political attitudes or
standards of good taste. United States v. Stevens. 130 S.Ct. 1577, 1585 (2010). Specifically,
First Amendment jurisprudence has time and time again demonstrated that political and religious
speech should be afforded special protections. One such case is Cantwell v. Connecticut 310
U.S. 296, 310 (1940), in which the U.S. Supreme Court overturned the conviction of three
individnals for passing out religious leaflets in violation of a Connecticut statute that made, it a
crime to solicit and breach the peace:
In the realm of religious faith, and that of political
belief, sharp differences arise. In both field die tents of
one man may seem die rankest error to his neighbor.
To persuade others to his own point of view, the
leader, as we know, at times, resorts to exaggeration,
to vilification of men who have been, or are.
prominent in church or State, and even to false
statement. But the people ofthis nation have ordained
in the light of history, that, in spite of the probability
of excesses and abuses, these liberties are, in the long
view, essential to enlightened opinion and right
conduct on the part of the citizens of a democracy.
30.

The Supreme Court has consistently classified emotionally distressing or

outrageous speech as protected, especially when that speech touches on matters of political,
religious or public concern. The Supreme Court has said that this is because 'in public debate our
own citizens must tolerate insulting, and even outrageous, speech in order to provide adequate
breathing space to the :freedoms protected by the First Amendment.™ Boos v. Barry. 485 U.S.
312, 322 (1988). Emotionally distressing speech will be entitled to special protection under the
First AiTifrWr/nii'frtiUI, when expressed at a public place on a matter of public concern; such speech
cannot be restricted simply because it is upsetting or arouses contempt. Snyder v. Phelps. 131
SOL 1207,1219 (2011).
31.

Uncomfortable expression touching on political or religious matters sent through

email is equally protected under the First Amendment as there is "no basis for qualifying the
17

level of First Amendment scrutiny that should be applied to online speech." Reno v. Am. Civil
Litolies Union. 521 U.S. 844, 870 (1997). Despite the challenges of applying the Constitution
to ever-advancing technology, basic principles of freedom of speech and press, like the First
Amendment's command, do not vary when a new and different medium for communication
appears." Brown v. Enfant Merch. Ass'll, 131 S.Ct 2729, 2733 (2011). Plaintiff was exposing
the hidden US Resource with a mass addy technique using select agency and local influence,
since Plaintiff knows who is supposed to utilize a resource of regional or even Global Health
importance.
32.

The fundamental importance of the free flow of ideas and opinions on matters of

public concern is the core of the First Amendment protections, even where speech includes
vehement caustic and sometimes unpleasantly sharp attacks. New York Times Co. v. Sullivan.
376 U.S. 234, 271 (1964). Surely, the government's interest in preventing flic use of electronic
communications to inflict emotional distress would still undoubtedly be furthered even if some
State statute did not apply to the type of discourse the Plaintiff may or may not of engaged inpolitical speech on matters of public concern, aimed at alerting government officials, and
exposing wrongdoers.
COUNT IT - FRAUD OW COURTS ALLEGATIONS

33.

Defendants worked between Judicial circuits in a select Enterprise of Judges, civil

savants to time dockets on both illegal civil foreclosure cases and criminal cases, in an effort to
subdue THE ENGINEER in Hillsborough County courts and expedite illegal trials to steal the
land and hide the secret underground critical health resource.
34.

Below is a copy of email correspondence proving THE ENGINEER was setup

and kidnapped by Hillsborough County District 13 staff (with help of Lee County and Sarasota
County Dist 12 and 20, as well as Broward County District 17) where Public Defender Chris
Shaw, the entire State Attorneys office, Mark Ober, Andrew Warren, Pam Bondi and Judges
18

during the 2016 Election pulled a fake arrest to subdue THE ENGINEER when land cases were
if in Middle District, 11111 District Court ofAppeals, and Sarasota Courts.
35.

The Enterprise worked with Cops, Media, Pulse Bar, Commissioners, Hospital

boards and these lawyers. Judges and police to attack America. They filled out fake AR-15
death threats on Pulse bar week. Chris Shaw was the Public Defender for die Plaintiff for die
Boston Bomb bond hike on April 15,2013 for Mosaic chief council case with Dave Weinstein at
Greenberg Trailing di
36.

red ttswo day before trial.

Attorney Chris Shaw is an arch Criminal with the Enterprise and Judges on the

payroll of the Enterprise in with the DEFENDANTS. See exhibit below which ties to an entire
case(s) of lies to attack die Plaintiff, his land, America and kill millions with Cancer Rates at die
Tap In a major Cancer cluster of America in retired West Florida.

iRxm: csuttfta smith <smithr^ppi s.staTp.fl.
Ottte:
3:33 «F»!M <<StVflTPOSrOO>>

Tto: cMsmbae Ottberti
SulblecS: FW: Zachary Sett

u«s>

,.ftQpra>

From: Mosakowsid, Rot*«rtTT. tmailtoiMogakowski RtPSAOi3th.com 1
Sont: Friday. August 31. 2018 3r24 pm
To: Catisha Smith <Smithc<g)PD ia.STATF.PL.us>

^Sulbded: FW: Zaclhiatry Sear
Oamsihus. swttaclhiod R* One irejpoint WTrBttetm Itsy 03 (tvSarstoall Zachary 3elf. yVddltaotrngBy. Mr. Shaw tarougtvt 8n Infs
computer this afternoon. Our tT department spent over an hour going through ft attempting to find the
email but could not find It.
ThanR you.
Robert T. MosaKowskf
Assistant State Attorne
Oeiputy Chief of Fdlony
(813) 274-1732

OMston 3

Proof no AR-15 threat was found but Judge Wolfe and State attorney forced plea to get to
Sarasota case after 6months of Torture and confinement
FAKE POLICE REPORTS WITH AR-15 TIMED WITH PULSE BAR SHOOTING BY
19

HILLSBOROUGH COUNTY DISTRICT 13
Figure
37.

Compare ILS. v. Throckmorton, 98ILS. 61,25 L.Ed 93 (1*78)E» Hazel-Atlas

Glass Co. t. Hartford Empire Ok, 64 S. Ct. 997 (1944); Demjanjule v. Petrovsky, 10 F. 3d
338 at 352 (6th Or 1993)
38.

A cause of action for fraud on the court may be brought at any time, and any

order, judgment or decree, obtained by fraud upon the court may be recalled and set aside at any
time, whether entered in a civil or criminal case. See, State v. Booker, 314 So. 2d 136 (Fla.
1975).
39.

Judges and attorneys are officers of the Court A State judge is a state judicial

officer, paid by the state to act impartially and lawfully. A federal judge is a federal judicial
officer, paid by the federal government to act impartially and lawfully. State and federal
attorneys fall into the same general category and must abide by the rules. A judge is not
the court. People v. Azjic, 88 III.App.3d 477,410 N>E.2d 626 (1980).
40.

In

Bullock v.

United

states,

763

F.2d

1115,

1121

(10th

Cir.

1985), the court stated “Fraud upon the court is fraud which is directed to the judicial machinery
itself and is not fraud between the parties or fraudulent documents, false statements or
perjury... where a judge has not performed his/her judicial function — thus where the impartial
functions of the court have been directly corrupted.”
41. “Fraud upon the court” has been defined by the 7th Circuit Court of Appeals to
“embrace that species of fraud which does, or attempts to, defile the court itself or is
a fraud perpetrated by officers of the court so that the judicial machinery cannot perform in the
usual manner it impartial tasks of adjudging cases that are presented for adjudication."
42. Kenner v C.I.R., 387 F.3d 689(1968); 7 Moore’s Federal Practice, 2d ed., p. 512,
60:23. The 7th Circuit further stated “a decision produced by fraud upon the courts not in
essence a decision at all, and never becomes final.”

43. “Fraud upon the court” makes void the orders and judgments of that court It Is also
clear and ndhettled that am attempt to commit “fraud upon the com*” vitiates the eatirr
proceeding. The People of the State of Illinois v. Fred E. Sterling, 357 111.354; 192 N.E. 229
(1934) ("The maxim that fraud vitiates every transaction into which it enters applies to
judgments as well as to contracts and other transactions.”); In re Village of Willowbrook, 37 III.
App.2d 393 (1962) (“It is axiomatic that fraud vitiates everything.”).
The Following Stale and Federal cases in Florida, Georgia and Washington have
knowledge of the timeline and hidden US and Global Drinking Water Resource, knowledge and
crimes of Genocide/Eugenics in US potable water supply vs Alkaline filtered spring water
supply.
US Supreme Court case: 18-11 HO Cedi Daughtrey. ct ux_ vs Rivera
US Federal Court
District of Columbia case:

19-cv-00738 Gilbert! vs Federal Reserve, eL al

Florida US Middle Dist case:

9:13-bk-14831 -FMD Daughtrey vs Rivera
9:19-ap-00104-FMD Gilbert! vs Rivera, et. al,

Georgia 1l"11 Dist case:

2:15-cv-35-Ftm-29 Daughtrey vs Rivera

Sarasota Cases:

2011 CA 004209 NC BSFL Holdings vs Daughtrey
2015 CA 006544 NC Gilbert! vs 72 Partners ELC
2016 CA 000205 MC 72 Partners vs Joe Gilbert!
12-CM-011299-A State of Florida vs Joe Gilbert!
13-DR-006408 David Weinstein vs Joe Gilberti
13-DR-007061 Vincent 'Vlarchetti vs Joe Gilberti
13-CM-008278-A State of Florida vs Joe Gilberti
16-CF-010976-A State of Florida vs Joe Gilberti
18-CF-004829-A State of Florida vs Joe Gilberti
18-CF-005038-A Stale of Florida vs Joe Gilberti

Hillsborough Cases:

Broward County Cases: CACE 18-008568 Borges vs Cruz
CACE 18-009607 Pollack vs Cruz
18001958CF10A State of Florida vs Cruz
21

17002130CF10A State of Florida vs Coiy Gilberti
19-005019 Israel vs Desantis
Florida DOAH Cases:

Florida Board ofEng Case:

17-003257PL -Fla Board of Engineers vs Gilbert!
18-003276—Polk Regional vs Peace River-Swfwmd
2016-029320 — Board of Engineers vs Joe Gilbert!

imQAmQJiMMGATJSm
PLAINTIFFS’ RICO CASE STATEMENT PURSUANT TO THE LOCAL
RULES* STANDING ORDER IN CIVIL RICO CASES
Plaintiffs hereby file their RICO Case Statement as required by Local Rules as follows:
1.

The alleged conduct that is chimed to be in violation of 18 UJSLC. 196 (a). (bV, (cl
and/or fd).
45. Plaintiff asserts claims listed in Introduction and below for violations of 18 U.S.C.

See. 1962 (a), (b). (c) and (d).
46. The individual RICO Defendants named herein formed a strategic alliance with THE
MOSAIC COMPANY (aka Mosaic Fertilizer). Environmental Protection Agencies. Center of
Disease Control, Greenberg Traurig Law, Southwest Florida Water Management District,
Sarasota County, Manatee County. Hillsborough County, Desoto County, Lee County, Collier
County, Pinellas County, Polk County, Broward County, Dade County, Palm Beach County,
local water supply regulatory Agencies, Hospitals, Hospital Foundations, Leaders, Banks and
Pharmaceutical groups to keep Cancer rising from Water Supply LOW Level of Service with
poor raw drinking water resources.
DEFENDANTS collectively and politically through local

Engineering.

Environmental and Consulting selections by Hillsborough, Pinellas, Polk, Pasco, Manatee,
Desoto, Charlotte, Lee, Hendry, Polk County(s), as well as Municipal Cities within. Peace River
Manasota Water Authority, Tampa Bay Water and Southwest Florida Water Management
worked together to collect massive amounts of Revenues by making millions sick with higher
22

cancer rates, more Medicine sales, bad medicine production with poor water resources and
inflating Medicaid cost and Water bills (see Gilbert! vs Ardimra, et aE. RICO filed in Middle
District where discovery was skipped to hide the US Resource by their Continuing Service
engineers for local counties and agencies).
Clean Walin’Act

Section 505(aX2) of the Clean Water Act (CWA) and
Section 1449(aX2) of the Safe Drinking Water Act (SDWA)
l.

H.

Failure to Utilize Higher Level of Service for Raw Water
Resources firm EPA and Peace River Manasota Wain Authority
Florida hidden Underground Alkaline Endless Spring Water River
and improper use of State Revolving Funds, US Giants to build
potential Terror attack above Sky Reservoirs (ZIKA Ponds) via RV
Griffin Reservoir after Hurricane Charlie pursuant to Title 42 li.S.C.
to protect foe Public Safety and Welfare of US citizens at the Tap of
a 4 to 6 County Regional System.
Harboring known US Terrorist Attacks surrounding this
critical medicine changing Unique underground Spring water
mixture and Resource and its court docket timing to kidnap THE
ENGINEER. Gilbert! while attacking his land and his clients land
with Elorida Dept of Justice and Leaders.

2.

The identity of each defendant and the alleged misconduct and basis of liability
for each.

3.

List the alleged wrongdoers, other than the defendants listed above, and state the
alleged misconduct of each wrongdoer:
48.

See related cases of Racketeering cases on common defendants and agencies

listed in this complaint and past that are headed to the US Supreme Court and more to be
filed as this World Resource is not leaving or moving anytime in the next 1 ©©million yearn.
4.

5-

Identity of the alleged victims and the manner in which each victim was
allegedly injured.

A description of the pattern of racketeering activity or collection of unlawful debts
23

alleged for each RICO claim:
50.
5.

See attached.

A detailed description of the alleged enterprise for each RICO claim:
51. The individual enterprise Defendants acted as an enterprise within the meaning of 18

U.S.C. 1961(4) which defines “enterprise” as “any individual, partnership, corporation,
associations or other legal entity, and any union or group of individuals associated in fact and
although not a legal entity”
a. The Individual RICO defendants are named at the top of the Complaint and Parties
listed. Defendants here are employees and/or agents ofvarious levels of State and Local
government in the State of Florida and US Congress as well as major Wall Street
groups, and local land developers, bankers, appraisers, environmental and Engineering
consultants, bottling corps. Hospital foundations and more. Together, and through their
various government roles formed an association in such as but not limited to the
Florida Water Fomam, Enterprise Florida and Sarasota Tiger Bay CUk The
DEFENDANTS consisting of the individual RICO defendants named herein set forth
in this complaint, used their authority and power to develop and carry out the fiscal
scheme to use toxic polluted, radioactive Peace River water and arsenic Ground water
raw resources instead of Alkaline endless spring water underground rivers (ready to
drink). The Peace River was known to be unsuitable for use and expensive to properly
treat, and DEFENDANTS want to steal die land, hide the volumes and sell medicine.
They want to hide the knowledge that finds many more in days.
b. DEFENDANTS purposely hid IIS Resources fitrn millions of People that afledt
National Security, Economics and Government overspending and feotrowing
from the Rothschild IMF Banks at the Federal Reserve by holding back the
sustainability and FREE Energy and Medicine this US Unique Resource
provides to billions of World People.
c. DEFENDANTS held up years of good Trade with other nations keep Wars
moving as this site shows mankind how to find Endless Clean Water, hence
endless food and reasons for World Peace and no enemies or boundaries. Why
would Nations fight with endless Free Energy and Food this World Resource and
its knowledge opens.
d. DEFENDANTS working with the Federal Reserve collect over $600 billion in
Interest each year from $20 Trillion in Debt that was only $1 Trillion when RV
Griffin Reserv oir was installed instead of exposing this World Water and Energy
knowledge this resource teaches the University sy stem and all the innocent in the
government. The rotate tax base to Judges with large land tracts making
decisions on cases and working in the same circuit like Judge Hall, Judge
Kimberly Carbon Bonner and marry more, attacking America.
e. DEFENDANTS manipulated Tampa Central Command and Local Leaders,
24

Police, Judges, EPA, Swfwmd and Tampa Bay Water Authority to hide this
Resource with the Bush Family who invests in Water Resources to hide them
with Coke and Nestle to keep War Machines going and Migration of immigrants
who don’t have resources in their town for food and Water due to Weather and
climate in colder areas.
f.

The CDC and World Health Organization with World Bank/Federal Reserve Central
Banks of this World Water and Health knowledge with this Enterprise, Obama, Trump,
Biden, Bush Clinton and EPA administration lor decades to kill Americans and cause
more viruses through pathogens in water by hiding this Global resource and it
knowledge to find the rest in days, hidden by the same Florida and Tampa Central
command enterprise of idiot Judges, Ceps and Lawyers lost now.

6.

State whether vou allege and describe in detail how the pattern of racketeering
activities and the enterprise are separate or have merged into one entity:

7-

The alleged relationship between the activities of the enterprise and the pattern of
racketeering activity, including a description of the manner in which the
racketeering activities differs, if at alL from the usual and daily activities of its
employees.

8.

The benefits, if any, the alleged enterprise receives or has received from the alleged
pattern of racketeering.
53.

Judges surrounding the property and Commissioners have worked with FDEP

and Leaders to hide this resource as Lennar, Culverhouse, Palmer Ranch, Lakewood Ranch,
Benderson Development, Debartolo, Bottling corps and more hid it to sell medicine, bottled
water, cancer centers and arsenic homes to US Citizens. Filling the tap of Hospitals with treated
Radioactive rivers from Peace River, the worst Water plant in Florida right next to this
underground river! They all knew and killed American kids who never had a chance! For
Money! And Votes!
54.

DEFENDANTS have capitalized on military spending as Wars and Hunger would

be massively reduced once this site opens the knowledge to find more via Meteor impacts to
Oceans beneath Earth.
55.

Describe the effect of the activities of the enterprise on interstate or foreign
25

commerce.

9.

If the complaint alleges a violation of 18 U.S.C. Section 1962(a). provide the
following Information:

56.

The Vault and timeline will detail out the coordination with Judges. Circuit

Courts, Federal court in Tampa and abroad working with a network tied to US and Florida
Leadbrs, Developers and Media to subdue the Engineer timed with civil cases, permitting the
resource and whistleblowing the resource in a Petition of Redress using Social Media, emails and
more as a Utility to expose Earths Nol Health and Energy Resource and Global knowledge
hidden from Humanity! These Judges and Courts all need to be arrested and replaced with
REAL AMERICANS! The Leaders. Cops. Teacher and more were too scared to help, like what
yeia see with the masks and nobody exposing this S20bIIl crap!!! Grow7 up Judges and Courts as
your done. And if this courts dismisses this or allows a sale to proceed with Terrorist on this
land and attacking this land, then this Court is next on the list for a civil case until we go through
50 States and everyone is detained by the masses. Nobody is above die Law and the lawyers,
Judges and their game is OVER!
12.

If Ihe complaint alleges a violation of 18 ULS.C. Section 1962fbL provide the
following information:

57.

Racketeering through a long time known Tri-State Florida Water wars in the

panhandle involving water supply groups hiding these secret underground Rivers in Alabama.
Georgia and Florida to pay lawyers and tax Citizens while hiding the true water resources.
Kid

ing THE ENGINEER with corrupt Judges and shooting building up with Broward Cops

and faking Parkland shooting. The timing is so obvious and millions know. And soon many
Parkland kids are going to cross as promised. Then all Judges involved are arrested as we have
the Petitions building now7.
26

13.

If the complaint alleges a violation of 18 U.S.C. Section 1962(c). provide the
following information:
a.

The individuals who are employed or associated with the enterprise:

58. See Defendants, Introduction and list of groups described in the Complaint that will
grow with discovery and other lawsuits tied to this complaint throughout Florida and the United
States.

b.

Whether the same entity' is both die liable '""person" and die “enterprise” under
Section 1962(c)

15.

If the complaint alleges a violation of 18 PJS.C Sections 1962(d). describe in detail
the alleged conspiracy7.

16.

The alleged injury to business or property

17.

The direct causal rriatjonship between the alleged injury and Ihc violation of the
RICO Statute.
59.

THE ENGINEER has suffered loss of Home, business, Reputation, monies,

family members, emotional damages as well as his client from the DEFEMDANTS massive
Torts and US Terrorism acts to the United States of America and the US Resource.
DEFENDANTS took almost 15 years of the Plaintiffs life and time with his Children to kill
Americans with Cancer rates and overcharge for Medicine.
60. See damages stated in Vault that will show monies and pumping rates in the Millions
of dollars per day. But nobody can put a price on lost time with family, death of family
members by this Enterprise as they killed my father while I’m in the Tampa Hole, as he had
the down die Hole video disks that show the endless capacity. All Judges are harboring
Terrorism and Murder with 72 Partners and Florida Leaders, Washington Leaders, including
Obama, Bush, Clinton, Trump, Biden, Pence and all Congress who have known since 2012
and helped Attack America and this World resource to KILL Children.
18.

The damages sustained for which each dcfaiHant k IbMr.
27

61.
19.

See above. TBD. Exceeding $15,000.00 US Dollars.

A description of Ifae Federal causes of action- If ay, and elation to the relevant
statutes.

L 42 U.S.C. § 1983 - SUBSTANTIVE DUE PROCESS - DEPRIVATION OF
CONTRACTUALLY CREATED PROPERTY RIGHT
iL 42 U.S.C. §1983 - PROCEDURAL DUE PROCESS - DEPRIVATION OF
CONTRACTUALLY CREATED PROPERTY RIGHT
iii. 42 U-S.C- §1983 -SUBSTANTIVE DUE PROCESS- STATE CREATED
DANGER
iv. 42 U.S.C. §1983 - SUBSTANTIVE DUE PROCESS - BODILY INTEGRITY
v.

Section 505(aX2) ofdie Clean Water Act (CWA) and
Section I449(aX2) of Ok Safe Drinking Water Act (SDWA)

vL

Florida Deceptive ami Unfair Trade Practices Act (“FDUTPA”).

vu.

Florida Fair Lending Act, section 494.0078, et seq. (“FFLA”)

VIII.
IX.

20.

Florida Consumer Collections Practices Act (“FCCPA^
CIVIL CONSPIRACY
A description of pendent state claims in the complaint, if any.

i. Fraud on the Courts and Terrorism using Smith-Mundl Act.
ii. Breach of Fiduciary Duty as an US Agency to Protect the Public Safety, Welfare and
Security of THE PEOPLE
rii Nuisance
iv. Negligence
v. Gross Negligence
vi. Unjust Enrichment
vii. Conspiracy and Racketeering of Federal Funds to pump Radioactive water and sell
medidmetto millions of innocent People. To fill Caiaceir centers whh dead children.
viii. Trespass
ix. Intentional Infliction of Emotional Distress
28

x. Negligent Infliction of Emotion Distress
21.
61.

Any additional information plaintiff feds wonM be hdpfnl to flic Court in
processing the RICO claim.
Plaintiffs believe and wish to emphasize that a significant volume of highly

relevant evidence supporting die damns herein will be obtained through discovery. Plaintiffs
reserve their right to supplement this form as this information comes to light so as to provide the
Count with these additional facts. For example, criminal investigations into this matter are
pending and have yet to disclose their findings or reports. In addition, plaintiffs had not had the
chance to obtain email correspondence that will likely further reinforce every’ fact and allegation
contained herein, as many of the individual defendants named herein have been moving to new
companies, relieved from duty, rotated to new municipalities or firms, retired, etc.
62. Plaintiffs reserve the right to amend the DEFEnSDANTS and actions set forth above
if discovery and/or further investigation reveal that any should be expanded, divided into specific
enterprises regarding said issues that collectively? are working in a mob, or modified in any way.
VI. COUNTS
COUNT I: § 1983 CLAIM OF RETALIATION FOR EXERCISE OF FIRST
AMENDMENT PROTECTED FREE SPEECH ACTIVITY AGAINST DEFENDANTS
63.

Plaintiffs (THE ENGINEER) te-allege and incorporates by? reference all of the

preceding paragraphs in this complaint.
64.

Defendants personally?, maliciously5, and under color of state law deprived

Plaintiffs of Plaintiffs’ rights under the First Amendment to the United States Constitution,
which are secured through the Fourteenth Amendment, by maliciously retaliating against
Plaintiffs for Plaintiffs’ exercise of die constitutional right of free speech to protest government
activity of great public interest of which Plaintiffs disapproved and protested peacefully without
interfering with the State’s operations.

29

65.

In depriving Plaintiffs of these rights, Defendants committed these unlawful

violations under color of state law in bad faith and with malicious purpose in reckless, wanton.
and willful disregard of Plaintiffs’ human, safety, and property rights.
66.

This deprivation under color of state law is actionable under and may be redressed

by 42 U.S.C. §1983.
COUNT II: § 1983 CLAIM OF FOURTH AMENDMENT ILLEGAL SEARCH AND
SEIZURE OF PLAINTIFFS’ BODY AND PROPERTY AGAINST DEFENDANTS
67.

Plaintiffs re-allege and incorporate by reference all ofthe preceding paragraphs in

this complaint
68.

Defendants personally, recklessly, mal iciously, and under color of state law

deprived Plaintiff of Plaintiff’s liberty rights under the Fourth Amendment to the United States
Constitution, which are secured through the Fourteenth Amendment by forcing Plaintiffs to into
jails and subduing his family members without a warrant or any probable cause to believe
Plaintiff committed any crime.
69.

In depriving the Plaintiffs of these rights. Defendants committed these unlawful

violations under color of state law in bad faith and with malicious purpose in reckless, wanton,
and wiSIM di^egand of Plaintiffs human, safety, and property rights.
70.

This deprivation under color of state law is actionable under and may be redressed

by 42 U.S.C. §1983.
COUNT m: STATE TORT OF CIVIL CONSPIRACY AGAINST DEFENDANTS
71.

Plaintiffs re-allege and incorporate by reference all of the preceding paragraphs in

Ibis complaint
72.

Defendants conspired together to commit illegal searches of Plaintiffs’ body and

property in violation of the United States Constitution’s Fourth Amendment as applied to the
States via the Fourteenth Amendment. These probes by State employees were done without a
warrant and with reckless indifferences to Plaintiffs* rights.
30

73.

Defendants conspired to retaliate against Plaintiffs for Plaintiffs’ clearly

established First Amendment constitutional right to voice disapproval of Defendants actions on
Water Supply.
74.

Defendants, together, retaliated against Plaintiffs by attacking Plaintiffs family

members, threatening Plaintiffs from local government buildings to stop permitting and exposure
of the US hidden Resource so Plaintiffs could not obtain transparency, and ultimately forcing
Plaintiffs to o take pleas in duress with timed fake criminal cases with civil land and lien cases in
other circuits counties apart to otherwise injure Plaintiff.
75.

The actions underlying this conspiracy arc illegal under the United States

Constitution’s First and Fourth Amendments as applied to the States via the Fourteenth
Amendment
76.

This deprivation under color of state law is actionable under and may be redressed

by 42 U.S.C. §1983 and 28 U.S.C. §1367.

COUNT IV: 42 II^LC § 19*3 CLAIM AGAINST DEFENDANTS FOR RECKLESS
INDIFFERENCE TO PLAINTIFFS’ CLEARLY ESTABLISHED
CONSTUTIONAL RIGHTS
77.

Plainti ffs re-allegc and incorporate by reference all of the pr

ling
paragraphs in
lII

this complaint.
78.

Defendant’s encouraged, caused, allowed, and/or enabled Defendants to violate

Plaintiffs’ constitutional and state rights without fear of discipline for those violations. See
Monell v. Department ofSoc. Svcs., 436 U.S. 658 (1978).
79.

Defendants d

KtJU-SSI-

rated a policy of deliberate indifference to such civil rights

violations. See City of Canton v. Harris, 489 U.S. 378, 389 (1989).
80.

Defendants callous, reckless, wanton, and malicious actions under color of state

law before, during, and after this loss, have caused Plaintiffs to suffer and continue to suffer the
damages Plaintiffs have described.
31

81.

These deprivations under color of state law are actionable under and may be

redressed by 42 U.S.C. §1983.
RELIEF REQUESTED
WHEREFORE. Plaintiffs r

fully request the following relief:

A. Plainti ffs re-alleges and incorporates by reference all of the preceding paragraphs in
this complaint,
B. Trial by jinny cm all issues so triable;

C. General and special compensatory damages;
D. Punitive damages;
E. Injunctive relief ordering Defendants to stop all Water infrastructure funding of in
Florida until this resource is assessed and tied into the Peace River Manasota Water
Supply systan; Detain all Civil Servants. Engineers, Consultants. Lawyers and Police
who falsified Police reports, water supply resources studies in the region, and ignored
the timed Terrorism and called it ‘Patently Insul•SIKHIIial" or ignored iL
F. Award to Plaintiffs of reasonable attorneys’ fees and costs incurred in connection with
this action from the Defendants pursuant to 42 U.S.C. §1988;
G. Stay ail Florida Court and US Court proceedings to with this case to move to
discovery as Pipeline permit is finalizing and other case Judges, Courts and more lied
and are being investigation for US Treason.
H. Allow time to depose all Judges and persons of interest listed in the Vault to open the
rest of these secret underground resources they hid for years to kill Americans and hid
this knowledge from other Nations to keep starvation, wars and diseases rising.
I. Initiate a Emergency Stay on the ILLEGAL Sale being processed by 72 Partners LLC
and Sarasota County Clerk and die Sarasota Circuit 12 Judges caught in a Eugenics
and Racketeering operation involving a US Critical medicine resource hidden by
32

Tampa Central Command, Bush Family and a long list of Florida leaders, developers
and Tampa Moffit Cancer centers.
G. Pretrial interest on compensable attorney’s fees; and,
H. Such further and different relief as is jjust and proper or that is necessary to make the
Plaintiff whole

DEMAND FOR A JURY TRIA1,
Plaintiffs. for themselves hemefey demands trial by jjmty om al issues so triable as a mnaler

of right.
JsJQoe fiiMenti
Joseph D. Gilbert!, Jr., P.E.
Plaintiff
385 Donora Blvd
Ft Myras Beach. FL 33931
813-470-6000
gilbertiwater@gmail.com
www.gilbertibluegold.com

Date: September4,2020

Cc:

US House of Representatives
Administrative Council
Ford House Office Building
Room 217
Washington DC, 20515
Honorable William Pelham Barr
Attorney General
U.S. Department of Justice
950 Pennsylvania Avenue, MW
Washington, DC 20530-0001
US Senate Committee on Homeland Security and
Government Affairs
340 Dirksen Senate Office Building
Washington DC, 20510

33

EXHIBIT A
Hundreds of LS Citizens and Activist group Request Engineering Gilberti AS EXPERT
FACTS
Public records correspondences between Desoto County Commission, Charlotte County Congress
aid Sarasota Assembly aud local Activists aid Public requesting Engineering Gilberti as expert Id
expose Mosaic and this Water Supply under attack presorted on February 18. 2020.

Hi Mandy, On February 4th 2020 at 12:22pm I sent you a request for an expert Witness to represent the
stakeholders of Desoto county at the Mosaic workshop on February 18th and IVe not heard bade from
you since. Please contact me before tomorrow's meeting.
Thank you
Mike Zarzano-county steward
Charlotte County Congress
941-800-7555
Sent from my iPhone
Begin forwarded message:
From: Charlotte County Congress <charlottecountvconaress@amail.com>
Date: February 4, 2020 at 12:22:12 PM EST
To: Desoto County Admin Mandy Hines <m.hines@desotobocc.com>
Cc: sarasotacountvconqress@qmail.com
Subject: Expert Witness Request-LandTech Biography 2020.pdf
To Administrator Mandy Hines,
Pursuant to the rules for expert testimonyThis is a formal and official request by the concerned people and stakeholders of Desoto county and in
adjacent Charlotte county to provide an expert witness at your Desoto county workshop on February
18,2020 at 9am and 1pm regarding Mosaic mining and the potential threat this activity poses to the
surface water and the deep Floridan aquifer under Desoto county and all adjacent counties in the region
and toward the southward direction of the natural water flow.
Attached you will find the bio, credentials and resume of Professional Engineer Joseph Gilberti. In the
next email we will provide a sample of the subject matter and issues at hand on the table to be discussed.
Thank you.
I am sincerely,
Michael Zarzano
Admin-Charlotte County Congress (NGO)

34

h

LAN

dTe c h

design group, inc

LandTedi Design Group, Inc., a stale certified Professional Engineering firm, provides real estate
planning and engineering consulting services, due diligence, permit expediting and construction
management to clients in both the public and private sector. Our expertise lies mainly in the land
devdkqpsnent and meal estate analysis areas with emphasis cm permitting and business development: in the
areas of engineering and construction of planned residential neighborhoods, commercial and retail
shopping centers, rock pits, roads, pump stations, railroads, and golf courses; access management,
permitting; right of way acquisition; outdoor advertising; growth management and airport development.
We also provide a broad array of due diligence consulting services and represent clients before the
throughout the Eastern United States, predominately the State of Florida, as well as the Caribbean Islands.

LandTech Design Group, Inc. currently saves as business and program development consultants to
various Corporations, Developers, Limited Partnerships and Joint Venture investors. The organization
also provides eminent domain expertise to law firms and several public entities throughout the state. We
pnmijfc consulting services for both private developers and public entities as to land utilization regarding
growth management, permitting, condemnation, Acquisition Performas, airport development, funding,
and grant assistance.

Our staff has served a variety of clients who have business interests in the planning and Real estate
development field. Mr. Joseph Gilberti, PJEL is a native Floridian and second generation professional
civil engineer who has beat a side proprietor in civil engineering and site development contracting for
over 20 years. He has worked in South Florida within the Tri-County area for major engineering firms
such as URS, Dames & Moore, Craig A. Smith & Associates, CCL Consultants and others under various
contracts and as office manager leading both large and small developments.

Mr. Gilbert’s has over 25 years experience with South Florida Water Management District, St. John
Water Management District, Southwest Florida Water Management District, Lake Worth Drainage
District. Florida Department of Environmental Protection and the Army Core of Engineers. Mr. Gilberti
has also worked with Dade, Broward and Palm Beach County and all of the City’s within these Counties
throughout these past years and has now developed relationships with many west coast areas such as
Collier County, Lee Comity. ChariottKe and Sarasota Counties and many areas across Florida on both
pritrate and pubic sectors.

35

EXPERT RESUME
ACCEPTED FOR WATER SUPPLY BY LOCAL PUBLIC AND DESOTO COUNTY WORKSHOP
ON CRITICAL WATER SUPPLY AFFECTED BY MINING CAUSING CANCERS

JOSEPH D. GILBERTI, P.E.

(813) 470-6000

Title

Senior Civil Project Manager/Owner

Expertise

Civil Engineering and Project Management for small to very large scale land
development projects. Permit expediting and due diligence. Owner ofLandTech Design
Group, Inc., a licensed Planning. Engineering and Consulting linn in Florida for
approsiroaltetylflyrs—Certificate ofAuthor! »i-riTrrn/vi21894

Academic
Background

Bachelor of Science, Mechanical Engineering, University of Florida, 1993

Rrgplr'jtior

Experience

Professional Engineer Florida PE #56079
ASCE American Society of Civil Engineers
ASME American Society of Mechanical Engineers
FES Florida Engineering Society
Engineering Contractor CLASS A - Broward County CCS81-9? 1

Self employed for the last 20 years in the State of Florida. Civil engineering, planning,
zoning and construction administration knowledge throughout the State of Florida for
over 30 years. Similar consulting experience within the surrounding states such as GA.
SC, NC and the Caribbean islands as well. Land development engineering projects
within these areas including site feasibility studies; site planning; platting and regulatory
approvals; value engineering; construction cost estimates; construction management and
inspection; environmental issues, as well as complete engineering site work design
including site pHamring and processing; due diligence; waiter distribution systems;
sanitary sewer collection and ItfhtKVl.p isskm systems; surface waiter
and rite
drainage systems; paving and grading design; and pavement marking and signage.
Similar project experience is as follows:

Project Experience
$

$
$
$
$
$

Plans and Resource access documents for a future 300mile Transmission System along U.S.
Interstate 1-75 providing Alkaline mineral spring water to existing municipalities, utility service
areas to millions of Taps solv ing public needs via National Resource Defense Council issues
regarding Florida North South Water Supply Conflict. Land owners with Resource and Engineer
of Record to create over one million new jobs, new medicine and lower waiter utility cost to
citizens.
River Hall Storm water management permitting- 1000 Acre Subdivision - Lee County, Florida
Somerset at Plantation-500 Acre plus Subdivision along Treeline Ave- Fort Myers, Florida
Paseo Development - 850 acre plus Subdivision - Lee County. Florida
Multiple residential subdivisions, municipal projects, schools, parks and public facilities
throughout Collier/Lee/Charlotte/Hendry Counties - List available
Murdock Transportation Facility—Charlotte County School District Bus transfer station
36

$
$
$

$
$
$
$
$
$
$
$
$
$
$
$

$
$
$
$
$
$

$
$
$
$
$
$
$
§

$
$

$
$
$

$
$
$
$
$

$
$
$
$
$
$

Charlotte CTC Votec Educational Center - Port Charlotte, FL - Science building
expansKMErenovalions and SWFWMD permitting
Gladiolus Drive - SWM Permit Modifications to CDD systems for I CDOT
Prima Luce - 105 Unit Twin Tower High Rise on River - Ltowifimvn First Street - Fort Mvers,
Florida
Hidden Lake Residential - Multifamily Subdivision - Bonita Springs, Florida
Treeline Preserve - Mixed Use - Commercial/Multifamily Mini Mall plaza - Fort Myers. Florida
Various Commercial Retail and Office projects—Charlotte and Sarasota County
6000 Acre Due Diligence for Canunarrtla Properties - DeSoto County. Florida
Multiple 2500 Acre plus Due Diligence within Hendry County, Florida
Paradise Shoppes of Estero - Commercial/Retail Plaza including Publix and Walgreens - Lee
County
S.R. SO Lighting LAPP Coordination - Continuing Service with CFM for downtown lighting
renovationsfrepair and grant firnding.
Various Civil design and permit expediting for Elementary/Middle and High School Projects
within Collier/Lee/Charlotte Counties
Deering Bay Marina — Coral Gables, Florida — 35 slip Yacht marina — drainage, permitting,
dredging and utilities
Doral Housing Development — Homestead, Florida — infrastructure for multifamity and single
family residential areas with two parks
Florida International University—Miami, Florida — Student Housing Facilities
SSDI Storm Utility—Miami Beach, Florida—Utility construction within Portofino DRI
Mitsubishi Saks & Service - Miami, Florida—site engineering and Regulatory approvals
University of Miami — Due Diligence for future student housing
North Miami Beach - Various Traffic Calming analysis within city limits
Biscayne Boulevard Various drainage studies for overall improvements
Silver Labes and Silver Shores — Broward County — 1300 acres of platting and engineering
including commercial and residential dev elopment, parks and roads.
Port Everglades Berth 30 Grane Rail Extension
Hollywood Fashion Mall - Alterations and Site Renovations
Land Section 8 - Plum Bay/Plum Harbor, Tamarac, Florida- 500 Units
Alhambra Spring-Pembroke Pines, Florida-291 Unit Subdivision
Bcmaventme Tract 13,30,31, Broward County, Florida - Town homes
Indigo Lakes, Coconut Creek, Honda - 450 Unit Subdiv ision
Coral Bay, Margate, Florida - Master Drainage Routing, Numerous Subdivision within
Cameron Waterways, Deerfield Beach, Florida - 300 Apartments
Sawgrass Fjtchange, Coconut Creek. Florida - 570 Units Subdivision with Commercial
Somerset at Jacarartda, Plantation. Florida - 150 Town homes
Village at Harmony Lakes, Davie, Florida - 572 Unit Subdivision
Palms at Sawgrass Mills, Sunrise, Florida - 400 Apartments
Jog Estates. P.LLD. in Palm Beach County - 104 Unit Subdivision
A-4LM station Restoration-Town ofPalm Beach at the Breakers Hotel
Yacht Club at Highland Beach, Palm Beach, Florida - Mid-rise Apartments on A1A and
Intercostals Waterway Areas
Barefoot Cove, Hypoluxo, Florida - 115 Apartments and US1 Turn lanes
Town of Palm Beach D-12 Pump Station
City of West Palm Beach Parks & Recreation -Numerous Parks and Cemeteries
Marriott Gce»i Point - Palm Beach Shores, Florida—site civil engineeringi’pennrtting
Highland, Roosevelt & Addison Elementary, Palm Beach County, Florida
City Pahokee, Palm Beach County - Water & Sewer Infrastructure Improvements
Glades County Correctional Facility, Glades County, Florida - 750 Bed Prison
Tlie Pavilkiri Pakihg Garages Tariipa-'Fksida -Multi-Story parking garages
Crestwood, Royal Palm Beach, Florida -218 Unit Subdivision
Hyatt Resort & Casino - St Kitts West Indies
37

$
$
$
$

Asian Village Antigua Island - 1800 acres of Resorts, golf courses, villas and homes.
Exuma Bay Island — Bahamas. FL—Multiple hotels and golf course development for entire island
including desalinization plants infrastructure and environmental permitting
Enron Mitrogpn Power Plants—Dominican Republic, INiew' Jersey, South Americas
ACOE Beach renourishment projects - Various cleanup earthwork dredging plans from Hurricane
Hugo damages for the eastern United States.

CfMBstrwction/Fieid Experience
Chapel Trails (800 acres) - Work drawings, survey, layouts for demucking fill, lake excavation
$
and roadways. Estimated and supervised entire section contracted out.
Tamarac Public Service Complex - Installed parking lot and lake, subcontracted infrastructure for
$
General Building Contractor.
Jones Interraflde Complex - Work drawings, estimated and supervised off-site roadways, parking
$
$

Multiple field inspections pertaining to civil and utility issues for jobs listed above.

Citizenship

United States. Bran March 20,1969, Miami. Florida-

38

EXHIBITS
FDEP PERMIT AMD APPROVED ENGINEERING PLAINS FOR PHASE 1 SPRING WATER
PIMJNE TO WEST FLORIDA AMD SOUTH FLORIDA REGIOMS
HIDDEN BY DEFENDANTS DIMING A NATIONAL CORONAVIRLS PANDEMIC
Applicant Name: ROBERT FLINT
Applicant Company: FONT FARMS LLC / LANDTECH DESIGN GROUP, INC.
Permit File Number: 0078714-026-DS
Application Received Date: 05101/2020
Project Name/Description: CLOSER TO THE HEART/Antioxidant Spring Water Transmission
Site Address: **
Dear Applicant:
Thank you for submitting your request for authorization to the Department regarding the above
referenced project
I am currently reviewing your request and wilt contact you as soon as possible. The Department
values your time and wants you to know feat we are winking to streamline our review process
and reduce the overall time needed to authorize activities.
If you did not indude a fell payment for this application’s fees and would like to make an online
payment for fee outstanding balance, please visit fee DEP Business Portal https://www.fldepportal.com - and complete the online payment process for a submitted
application. Please note feat fee following fee types may not be completed through this process:
* Payments for annual fees
* Payments processed by a local delegated program
* Partial payments for application balances
If you feel you have received this email in error or if you have any questions, please contact me

at Nolin.Moon@floridadep.gov or 239-344-5672.
Thank you and I look forward to working wife you.
Regards,

Nolin Moon

Thu, Apr 30, 7:47 PM (7
days ago)
Gilbert! Water USA Blue Gold <gilbertiwater@gmail.com>
to SRF_Reporting, South, Jon, Nolin, DOHSarasotaEH, LeeCHDEEFeedback, chd50feedb
ack, contact.miamidade, contact, Paul, peter.gaynor, Desantis.OpenGovernment, Robert, J
ohn, Don, commissioners, peaceriver, karen.west, Chris.Constance@CharlotteCountyFL.g
ov, board, whs.pentagon.em.mbx.communications, Wheeler.andrew, Post.CHD006, preside
nt, president, bcc: Charlotte, bcc: FOXaroundtheworld, bcc: 60m, bcc: mayor,

39

bcc: sarasotatigerbayclub, bcc: NYAG.Pressoffice, bcc: nytnews
Dear Stale Revolving Fund for FDEP Water infrastructure funding,
Please see attached Request for Inclusion on Florida Department of Environmental Protection
Drinking Water Priority List, 9 mite Transmission plans for a proposed Service agreement for the
Peace River Loop Option pumping arsenic radioactive treated Peace River with Mosaic and
Phosphate mining spills, to be replaced with Alkaline spring water from a
hidden endless underground river.
See attached permits, plans, water readings and application for inclusion funding. With viruses
in Pathogens of Water, in a Coronavirus Pandemic, this economic and health resource goes to
the TOP OF THE LIST
This Water mixture is unique and so is this hidden underground river that can be validated in
hours.
Please contact me if you have any questions or concerns. Please forward this to Ron Desantis
and your office reviewers immediately so we can begin a alkaline housing boom in West Florida,
new medicine and World Exposure as these hidden underground rivers are all over Florida,
USA and Earth, see Giiberfibluegold.com.
https://voutu.be/OU p22bQwLq Access to Underground River showing pure spring water ready
to drink hidden for 50yrs by SWFWMD and more.
^ Closer to the Heart - Alkaline Spring Water Ser...
Sincerely,
Joe Gflberfi PE
813-470-6000
qilbertiwater@Qmail.com
----------Forwarded message--------From: Gilbert! Water USA Blue Gold <qilbertiwater@qmail.com>
Date: Thu, Apr 30,2020 at 5:37 PiM
Subject Re: Electronic Notification of receipt/CLOSER TO THE HEART/0078714-G25-DSGP
To: Iglehart, Jon <Jon.lglehart@floridadep.qov>. South District <SouthDistrict@dep.state.fl.us>
Ce: Moon, Nolin <Nolin.Moon@floridadep.gov>. Robert Hint <flintfarms5277@vahoo.com>.
John Larry <asepls4349@qmail.com>. <SRF Reportinq@dep.state.fl.us>.
<SouthDistrict.pws@dep.state.fl.us>
Dear Mr. Iglehart ami Mr. Nolin,
Thank you very much fen- all your help expediting our permitting needs thus far. Its nice to see
Government working so hard for citizens in trying times.
Attached is the individual FDEP permit application for the 9-mife Transmission for Closer to tire
Heart. Please withdraw the General Permit petition and replace it with this petition.
I can have the signed application, signed and sealed plans and fee by tomorrow or the same
day we have the conference call to finalize the items early next week, which ever is best as this
may be already fine filled out the way it is. I have question on minor items such as changes
along the way during construction for the permit due to modifications and such.
40

We are available by phone conference anytime you wish. You have our numbers and
information, f want to expedite this permit for our investors now. It looks like the fee is $900 to
process, please verify.
Please verify this application is the correct one, filed out appropriately, as I discussed this week,
so we can file the fee, signed documents, and plans at your office immediately.
Thank you in advance for your assistance.
Sincerely,
Joe Gilberts PE

813-470-6000
qilbertiwater@amail.com
E Closer to the Heart - Alkaline Spring Water Ser...
On Wed, Apr 29, 2020 at 9:54 AM Iglehart, Jon <Jon. lqlehart@floridadep.qov> wrote:

Joe,
Our office is closed till further notice—at least till the middle of May. We can set up a telecon meeting.
Nolin Moon will be reaching out to you to set that up and on the application that we received as a copy of
what you submitted to Desoto county. Since it’s a GP and did not have a fee and was not signed % the
property owner, we cannot approve it as is, or send a request for additional info. Could you send a note to
either indicate it was not yet meant to be submitted or w ithdraw it and then we can go over the criteria to
get a successful application in during our telecon?
Thanks,
jon
From: Gilberts Water USA Blue Gold <gilbertiwater@gmail.com>
Sent: Wednesday, April 29,2020 9:33 AM
To: Iglehart, Jon <Joniglehart@FloridaDEP.gov>; John Larry <asepls4349@gmail.com>: Robert Flint
<flintfarms5277@vahoo.com>
Subject: Fwd: Electronic Notification ofreceipt/CLOSER TO THE HEART/0078714-025-DSGP
Jon,
Can we get a meeting tilts week or next at your office. 1 want to go over this permit petition and
application to maybe consider a individual permit Didnt know Desoto was gonna waive review.
I also want to verify jurisdiction on Well Field permit at FDEP and some other tap issues for our
Servicing System to multiple water suppfy Regions via the West and S Fla pipeline in FDOT permit now
too in District 1,4,6.
I want to discuss review scenarios we have that tie to this permit via the large 3O0mile Transmission
presented to Dade Commission in 2014 and Broward in 2016.
We are presenting to Palm Beach County and about 40 Cities this summer in South Florida and southwest
Florida cm Blue Gold to Tap and new Medicine and sustainability Resources.

41

\

EXHIBIT C
GmUrrartfi vs Man Hesanttis <26 all—KacCssfleerrnEig (TW's
In Appeal at 11* District Corart of Appeals Georgia

42

GILBERTI WATER COMPANY

FEASIBILITY STUDY
A MULTICOUNTY COUNTY WEST FLORIDA SUSTAINABLE SPRING WATER SUPPLY

for

PEACE RIVER MANASOTA REGIONAL WATER AUTHORITY
at
DAUGHTREY RANCH
9438 Daughtrey Road
Sarasota, Florida 34266
By
LANDTECH DESIGN GROUP, INC
385 Denora Boulevard
Fort Myers Beach, Florida 33931
813-470-6000 direct
813-482-8512 main

"Increasing home values, creating jobs and lowering heath care cost with antioxidant spring water to the Tap"

Introduction
Reianflfy Jtoe GEberti PE a pxoifessHMieJ engcnteer (roam University off Florida discovered endless qnznffiiies
off a new natural lesrarrcepiedMiJiigw^ inicqiisanaiQwrila^feadtytoiW^sincnig waSar. The souote hs
located approximately 1500 feet below ground, located within the Myakka Basin of Sarasota County,
ftartda just norttrcrest of the Peace River Regional Water Treatment Facility - at the Daughtrey Rand).
The 2500 acre ranch is located along dark Road (SR 72) east of Myakka Park at 9438 Daughtrey Road,
Sarasota, Florida 34266.

'VXMOOf

Locathm Map

Our geological and quantitative research suggest a titled wall from the Florida platform creating massive
and mnojitipSe Home rock bed fractures generated by forces from the KT Event or flfiie Ywrattam meteor
impact ultimately giving access to what Scientist believe in recent releases of Oceans of Clean Water
beneath the Earth. Scientist confirmed approximately 250 miles hebw Earth’s surface within its ttortri
Oceans much greater than all the Oceans combined with dean Spring Water released from diamonds.
See reference to sutaenramean Oceans betow from a ffirue Daamortd recently dSscovemed caDed
Rmgwoodite:

KT Event Efts Ftariida oail of Ocean causing spring

CoiiOTlmi to SaJilmansm Ocean at Surface

Bubbling imd« The Btogwooditc teieivoli

whk* nay affect areas
deep underground

OCEAN

I

£ .ZY. J

K'~>mwix'mmb

t

••

p

\

-

EARTH'S CRUST

\

cxoe

t
live* tunes the
amount of water
found in Earth's
ocMmenapte

i
Earth's water nay
have come from
within, driven to

.found
660km <400 mdes)
beneath the Earth-

ff^aoiMffrlcr
comets hitting the
formnjjtawt

ItffMlcff tcHuRy.

cm

I

RISTT'ME
:
* -.‘teasssstef
fciSilX'i

" T----- *
RINCWOODtTt
Owe CATHtneTT

Eartftfe true water tytfe from a biug diamond causing siritterranganpreripctaliiign

The Earths actual water cycle Is withir* the rocks, transforming gravitational pressure
creating energy cycles with water mixing with mineral rocks ranging from the surface
oceans tan the cone titmnugjln titne mnemtell lEantaril nil a dfamnnwil calll

State Dianraimimfi Rjegatwuminte' hiatal water hata rte mmatenute sturaattmare deep) betas® Earth must wnthnm time (Mantel
The spring was sfisenwered with a deep ftaridam Wed ringed ttowm 1509 feet; which struck an
underground high alkaline and mineral spring ready to drink. Multiple years and recent investigation
suggest a ti& m

underground

mine KF mrtemr impart. THhis impart is weQ knownifor

killing ofF dinosaurs over 65 million years ago and creating the Gulf of Mexico and essentially lifting
Ftorida from its once Ocean bottom to the surface with multiple west coast subsurface dhanges.
Tfhas tdiSt in the underground meteor forces that affected the Ftorida platform is adjacent to the
tiknunstream sump, known as Myakka Park to the west of Daugjhtrey Ranch,

hi doting so this p&alUfrwm

transformed energy striking the spring source that connects approximately 250 miles below where an
Ocean of sntppHy exists pmnrodGng inrapite water with extremely health read-rigs and enormous flow
creating, a sustainable resource within months to Floridians and more.
With this one of a kind antioxidant home values will soar and construction and demand for homes will
increase with Jobs hand in hand. With Port shipping, proceeds can be mitigated back to the People for
education and health care needs for Florida and US Citizens.

Water Analysis and Comparison
line waller readings (from this source are showing hijgh minerals, pH off 73 and very low chloride lewel$,
producing a new health source arntirasndlant spring source with sodtn abuumdarnce a provider for energy amd
sustainability is now available in water supply. Basically the water has all the good minerals in high
doses Hce magnesium and calcium, ready to drink due to low chloride levels, with a uniquely high pH
and a very low specific gravity, making a very unique health source for water.

Below is a water sample taken at the top of pipe at the Ranch flowing, artesian.

Report #: 11712156
0«t*:

fr* Tff f nrlronpwnUI IntiiH) $t Rr«r<mh

P.O.Number:

11/7/2012
102 Ck

Maun: w«M Water
CMwh Cedi Dauohttev Jr.

Seme es Client

9438 Daugfttrey Rd
Side* Ft 34266
(S13)«704CS9
The temple taken by Jot Gflbertj. PE at 3.00.00 PM
on 10/24*2012 Port erf OOQecbon Wei «2

Location

Health Scan Report
Public Drinking Water

RetwKe

E?AJJsy»

Genera/Beeferie
TeUI cwdenn
Fecatc. c#e

AbMM

MMNlMVrtt

74 M (we'k

» e Mfft. w Mm. oee owe***
ACMVWMiliUl

NtlM

»—iiMVm.M4rT>ei

ia«yi

<a*y Cevee Uueery eiaMMe

• Mnyi

Mfero4ndn>t
■wreAnWiM
Geoere/ Chemistry

iMmt*.

NwoewcWd
Pan

1*4 aftl

7t.ee tncIL
neat mfn.

Hm Pew ewe

tM.

He UM
A Cwpewl ef HerdneM

MeLMl

A Teeie Hew)

etiewgA.

ATeitc Hew

eats myi

ATeitetteWi

pH

7,4# tO

TurWeMf

e 4# M.T.U,

Preeene# M PtnMee

MM DllKM

Clarity *1. OweMwpHwi (IS)

ItnfA.
If-IJIU
He Lime
iia &u.
MT.O.M.

Toa.

tme we*et
t m * "•#*-

TetH OMeeHod mnwMe erwrt

Ateem

(MWeofredSeada

Me Law

mmol

AfcaWWy

ITM mfA.

Me Uml

CMortee

teen m**.
aeu m$n.

tHieek

etwfA.

t ■ 7J M twedenr m*

Holm

it* (Rt*
NttrtW

teen**.
eiWaaW

Met Pew lied
MVepen

eee? wan.

DWmWMWmM

HtN

A ItWenl, Can Cane Oder

m|A

itweA.

Me Lane
minyi

Ridtochmnitav
MMPeWeWd

Rata* a* Wafer

ie.ee* pc*.

J

A4i
tj

iT«

•t ENn HM Av*.

Olil

hW'MWI

Leomineier MA t14534N4
MoOMrtaev.com

(I7») *404*41
www.etrtetov.ecm

(MO) 3444*7?

Paga 1 of 3

Exsthim Peace Ri^lMWtrescwin^fmWc^Swi^
NASA SATELLITES DETECT "GLOW" OF PLANKTON IN BLACK WATERS
Rar tfioe ffitstt (feme, stamalfislls nmay mot*1 dktedt a pBnyfloplWldtom Wtoranra in ills
early stages, by looking, at its red, "glow" under sunlight, due to the unique
dbttn firasnm ttw® NIASA agteffltES. Afflnimiiing te a sttmBy corndholteii iim tte
GmiroftVfcxkn. this pfawwmaiom
rs
about developing cases ofred tides that occur within plumes ofdaik"Mtsfc water
events.
Dark-colored river runoff includes nitrogen and phosphorus, which are
rarf as feBtfiffiaras an ^grikufttmine. Ttesc oniitliraaiotte ian®e tfani rfi
algae called phytoplankton. During extremely large phytoplankton blooms
mlhniie HUnc aflgaiE bb s® fflsmnaitliiaftBffl tfc water may appear fcttndk. soime
phytoplankton die, sink to the ocean bottom and are eaten by bacteria. The
Bacterial (nmunmne tflb£ a%BE anti (fiqjfbte ®Ks®nm fframn fc wtear tfattoanfe
to fish Mils.

I'-

■0

\

r

r

9
V
Item 1

Ohramnim IHlii amil
Frank MuHcr-Rai go,

CWtegE rfMarirniE
Petersburg, PM, used
RffiSfflfrafiMai!i tanging
BtelhNIASA'kTianm
human gyg panimt

TVacdbiffitytodEtectt

1! SitteJite(BiffTllhnw®is3^'(BfSaintlIhff:Ibsriito,S0.
; fluorescence data from NASATs Moderate
^MQDIS)i wTMjtrriufinnwiwta. afoeacd
1 SpcctoonaiilM
ami Aqpni satellites. MODUS dtetedts tte gteravsir
f IBuUiescerfrUfc (from tbe ptantfls cBrkx opfiv Vf. TUde
'■ detect the red fluorescence.

QniikcIVtpiK ftflnafl ifeymm flnfffF

■ Rowing
pfaytofrljBpJdaja. are. present in tatge dask. waiter
tfflne ©mislt rfIFBamfito. WSttlhxgn[lttfil!i£s^dkitte.iittmB

dark river runoffthat

contain few individual phytoplankton cells.

u/bgtbgr

®BE3Bmsc eoBatei dfamiltefl anganfic mnaffiteir tfatt eniganates am niwas
absorb similar amounts of blue and green color signals as plants do,
ttnarflriiiMaflsaOrilitKsAiMsk^'iimEaMiTffis^^

ABjUasiB^h sttftelllSittesaanitaBEttcdSinsibfll^'isniQaEffiaiinciiinrtlirSsGiflxiDnlla&ss.iTnwEiisL,
wetlands and oceans, remote sensing technology measure the quantities of
flritmfam SnknttiHtt* onn tfkum oilndhteltam’moiibmiirtminiil
BnE.niiDraBrdl
topwm’fhjiSEaniuiimUtiiiid'pilairitem.

SfaanaiiifllEanisraffidl
ctexfc p'.inne event bi

I>

If '

f

I .»~

Pk»raifl fiftagi

spcnsrs, n^ie fSrcndl

i

[

T

*«

| y\WI>»<ri»w t «*. |

"Otar Stanly tares tflae
200 kilometers (124
suggest (ha the
wfattBasqpjBaasom tom!
Caloosahatchee, as
itnvmiffiniimmt; tradti aw;
2003, may accelerate

ft

to"

/
f>

L «i hi«
'i"
»-*

T
(jUm

.>. .

_ it . -4

Mtadtwaltorjpitdbis;
: Htariidhi Ki^s to ssrnne
miles) away upstream,” said Hu. "These results
jMccfliE Ftarala Keys ecosystem is mcncrcted tn
angS os ttsHQ) tnanaatte nireras, tllhe .Besots: amH
they drain into die ocean. Extreme climate
gUfifunmurfUly
tna^br i [EWTfl iim syilliifljg aituD siiifiBiiiBtgn*
such connections,* he added.

-

#

*

o^0*

«-W

*rr~ «M»'. £r/*«r

These finding are

based on scientific analyses ofseveral things. Data
J oneiESBia csedtsir Sramra Ot(£CKQSIS aia^ SsaH^nEseciEEi^ Wtnhs;
(ScaWiFS), and wind data fiom NASA's
ILS. GtwJogkaJ Stovcy, NzStoc&ri Oocaaic and
Adtaragfir^tM®) JNOAAJl Ftarmbfs Fisfti zmfl
InstiitaSe, and
iladinB providod raoi^

Item 4

FWof-newSeRwr
Qm&SCATsaSriliSfc.
Wffldlfife Reseach
riv® fUcpfaflrgp

s.

I
|^1

l

(he fill of2CfflB near Charlotte Harbor, offthe sotrih
Moderate ctMMyffliraiMWS ofome ofFlorida's tied tide.
(jjmginn
^yrrrjity^

.’►H

fiakl purvey

By knowing whkh way (be winds Mon? and the cements How; Hu and
coMeagwes can predict where Mack water may move.
Red Wes octer every jcai ofTFIorida and aae known to cause feh Balls,
COial. stares, and mortality and dcin. and. respiratory problems. in, barmans
Ptoiigiiis stmiffics sflMra'tiM pnafanagaS "ftHacfc waffin'11 pgarifcgs eaaass matequality degradation and may cause coral death. The use ofremote sensing
‘crttrillliitre: flrmramifei: (rfflfrtrttiwir- nrnpaum: (Bar mrmriftrmmyn amifl pmaiffjrfliiiTO <omrih
events.

i

Ute Uk Urtnn Motftdl mmMfflraiiKfl Mkdk water ewantte fc am assamupDe <sfi
how land and ocean ecosystems are linked together. "Coastal and land
mmnqgBis ©war Baigse aneas mere! to wank togstfoar,, to ateite name fcftedk
water events fiom taking place m (he future,’” said Muller-Karger.
This study appeared
Bfflan®BBatfeaeirf
the American
GeojihiyaaEah Umemn’s,
Gcrapiire»cd
Research Letters.
. CsrmutfiniiiKffiffc
article include
GaBsmrfl Vang® ami
Florida and Elizabeth
» .* _» — _* — « _ -«
lmCCESOSilnB^SCZS
NASA’s Science

*
*»
*/•
rv

M

O

m
f.

*

Item 5

.t ^
J*

t'i

r*

Momiie Baffla INtority ffiwnn UmransS^rfSamllh
Johns fiom NOAA’s Atlantic Oceanographic and
«y-

.t

»•

n,

■-\

»>

Directorate works to improve ihe Iwes of all

.t.

biTnrwimv fiTn.inTi*yttn tfcffi

• i

sjsHnni ami tfhe
b«

/

•»’

*i.t

IftrisOTate.

\
Ci

i

S.-.
C-

£*

Cs

Han 6

Ci

C*

«•

Water Supply Connection Design Options
Two alternatives
designed in order to determine tine mast efficient way to replace the existing raw
water resource dfa poffluitted peace rosier to
spring water.

Option 1
Smarte piped from Daughtrey Ranch southwest through Walton Ranch to the existing treated
transmission main near Toledo Blade and Interstate 1-75 pumping from PRF to Carlton WTP to pump
RAW spring water lio both fadfitties with modtfkations off direction and point of disniedtion for spring
water.

Option 2
Source piped from Daughtrey Ranch southeast to Peace River FatiHy (PRF)
Ultimately both Options could be combined with a market strategy and some review of current Capital
hmproMeroewt rieerifeasw^asinnoiiMfcattioin&cfrapproadhiinginflrastinucfiiureinnpirq^
local Water supply and transmission area to insure money is spent efficiently as this source joins in for
tine puifcfic based! cm fiSne US Federall Glean Water Adi„ FtotMa Department of Protedtkm and 62-555, fi2560 and 62-550 F.A.C.

..

Optfnni 1 amdl Optfanni 2 far Peace StTwer IMaroasotta Serwice area

Federal Drinking Water Regulations
The United States Environmental Protection Agemcy
EPA) sets irrational standards for tap water,
which help ensnare amsiistene quakty fn our nation's water snippy.. U.S.. EPA prioritizes contaminarnts for
potential regulation based on risk and how often they occur in water supplies. U.S. EPA sets a health
god based on risk (mdutfing risks to the most sensitive people, e.g., infants, children, pregnant women,
the elderly, and the imumiuno<onipromised)- US. EPA then sets a legal limit for the contaminant hi
dlrimking water or a respired treatment technique as dose to the health goal as feasMe.
IH&. EPA sets primary drinking water standards through a three-step process:
JUS

First, U_S- EPA identifies contaminants that occur in drinking water and may adversely
affect public health and with a frequency and at lends that pose a threat to public
health.
Second, US. EPA determines a maximum contaminant level goal for contaminants it
decides to regulate. This goal is the level of a contaminant in drinking water below
which there is no kmcnm or expected risk to health. These goals alow for a rnnarpn off
safety.
Third, US. EPA specifies a maximum contaminant level, the maximum permissible level
of a contaminant in drinking water, which is delivered to any user of a public water
system. These levels are enforceable standards, and are set as dose to the goals as
feasible. When it is not economically or technically feasible to set a maximum level, or
when there is no reSahte or eeunormiin: method to detect contamiinanits in the water, U-Sl
EPA instead sets a required treatment technique that specifies a way to treat the water
to remove contaminants.

Safe Drinking Water Act
Congress originally passed the SDWA in 1974 to protect public health by regulating the nation's public
drinking water supplies. The law was amended in 1986,1996 and 2002 and requires many actions to
protect drinking water and its sources. The SDWA does not regulate private weNs that serve fewer than
25 bndiiMiduals.
The SDWA applies to every PWS in the United States. There are currently more than 170,000 PWSs
providing water to almost al Americans at some time in their lives.
Essential components off the SDWA include protection and prevention. States and water suppliers must
conduct assessments of water sources to see where they may be vulnerable to contamination. Water
systems may also voluntarily adopt programs to protect their watershed or wellhead and states can use
legal authorities from other laws to prevent polutionThe SDWA mandates that states have programs to certify water system operators and make sure that
new water systems have the technical, financial, and managerial capacity to provide safe drinking water.
The SDWA also sets a framework for the Underground Injection Control (UIQ program to control the
injection of wastes into ground water. UJL EPA and states implement the UIC program, which sets

standards for safe waste injection practices and bans certain types of injection altogether. All of these
programs help prevent the contamination of drinking water.
IMatmwtal Secondary Drinking Water Regutetsons (HMs or secondary standards) ate ncnHenfmroesflife
guidelines concerning contaminants that may cause cosmetic effects (such as skin or tooth
discoloration) or aesthetic effects (such as taste, odor, or color) in drinking water. U.S. EPA recommends
secondary standards to water systems but does not require systems to comply. However, states may
choose to adopt them as enforceable standards.
IRDEP &2-555310Sowce cm$ Siting ftemurememts for PMk: Water Sv56em&.
(1) Suppliers of water shall obtain raw water from the best available source that is economically
and technically posable and shal make an effort to protect the source from
contamination.
$2} To the extent practicably, suppfiers off water and persons constructing pubic water systems
shall avoid locating any part of a new public water system, and any expansion of an existing
public water system, at any site that:
(aj) Is subject to sgprificant risk from contamination that could adversely affect the
quality of drinking water or is subject to significant risk from floods, fires, or other
dsastems that coudd cause a breakdown of the pdbfic water system or any portion
thereof; or
(b) Except for surface water impounOknents, reservoirs, or intake structures (including
pumping fadStties) and except for underground piping and appurtenances; is within the
floodplain of a 100-year flood or is lower than any recorded high tide.

IHBstmv of Water Treatment
Hippocrates (460 - 354 BQ, the father of modern medicine wrote "whoever wishes to investigate
medfitiine properly should _ consider the water that the xnhabitainls use __ for water contributes much to
health.
The history of water treatment dates back to ancient times. The first constructed sources of drinking
were shadow weds scooped out in wet areas. As tools
developed, deeper
were
constructed such as the ancient Egyptian Joseph's well at Cairo dug to a depth of 237 feet in solid rock,
ft iis two stories the upper to a depth off 165 feet was 18 feet by 24 fleet and the lower was 132 fleet and
9 feet by 15 feet. Water was raised in two lifts by means of buckets on endless chains.
Methods for improving the aesthetic qualities of drinking water were recorded as early as 4000 BC In
adduttinm, there are references m Sanskrit dating back to 2000 BC that refer to boding and tittering
drinking water. Egyptians used alum for clarifying water in the Iflth century BC and wick siphons to
transfer water from one vessel to another to remove suspended contaminants in the 13th century BC.

Onto Warburg No/heS Peace Poize 1332 Camcer Gef.& and hjH in the Body

Scientific work and Nobel Prize

Otto Warburg, 1931
Wh3e working at the Marine Biological Station, Warburg performed research on loxygerl
jggngymp|igrj in sea urchin eggs after fertilization, and proved that upon fertilization, the rate of
respiration increases by as much as sixfold. Us experiments also proved iron is essential for the
development of the larval stage.
bn 1918, Warburg was appointed professor at the Kaiser Wilhelm Institute for Biology in Berlin-Dahlem
(part of the Kaiser-Wilhelm-Gesellschaft). By 1931 he was named director of the Kaiser Wilhelm Institute
for Cell Physiology, whkh was founded the previous year by a donation off theRockefeller Foundation to
the Kaiser Wilhelm Geseflschaft (since renamed the Max Planck Society).
Warburg investigated the metaboSanm of tumors and the respiration of ceBs, partiadarlvlcancer cella.
and in 1931 was awarded the Nobel Prize in Physiology for his "discovery of the nature and Imode oil
Ig^jggjof the respnratawy enzyme.'"121 Utne award came after receiving 46 nommations over a period asff
nine years beginning in 1923,13 of which were submitted in 1931, the year he won the prize.131
In 1944, Warburg was nominated for a second Nobel Prize in Physiology by Albert Szent-Gyorgyi, for his
wont on nicotinamide,, the mechamsm and enzymes involved in fermentation, and the discovery
of flavin (in yellow enzymes).141151 Some sources reported he was selected to receive the award that year,
but was prevented from receiving it by Adolf Hitler's regime, whkh had issued a decree in 1937 that
forbade Germans from accepting Nobel Prizes.161171 According to the Nobel Foundation, this rumor is not
tiues atofwNHEh he was consideied a worthwhile camuhdatt^, he was not selected for the prize.141

Three scientists who worked in Wanfargfs Bab, incftudiiiig Sr Hans Adolf Krebs, went orn to win the INta&dl
Prize. Among other discoveries, Krebs is credited with the identification of the citric acid cycle (or
Szentigydrgyi-Krebs cyde).
Warhurgfs combined work in plant physiology, cell metabolism and oncology made him an integral
ffijguiir® iim the latter deiieitoptmemtt: off systems biology.181 He worked wih Dean Burk m photosynthesis to
discover the i-quantum reaction that splits the C02, activated by the respiration.191

Cammer hypothesis
Morn article: Warburg hypothesis
In 1924, Warburg hypothesized that cancer, malignant growth, and tumor growth are caused by tumor
ceife imaMy ganevattnitg energy ([as eg-adenosine triphosphate/ Alf} by nomosajdattiwe breakdown
of glucose (a process called glycolysis) and the subsequent recycling of the metabolite NADH back to its
osanffized form, forr raw in the gjlyrariytBC cycle to icnmplette the process (known as fermentation,
m anaerobic respiration). This is in contrast to "healthy" ceils, which mainly generate energy from
oxBdattwe breakdown off pyruvate. Pyruvate is an end product: of glycolysis, and is oxidized witthm
the mitochondria.

Hence,

and

according to Warburg,

cancer should

be

interpreted

as

amitochondrial dysfunction.
Cancer, afenroce alll other diseases^ has onumttfless secondary causes. But;, even far cancer, there ns only one
prime cause. Summarized in a few words, the prime cause of cancer is the replacement of the
reparation ©ffoarygemi in mammal! body ceffls by a ffertmemiSattiton off sugar.
—Otto Ml Warburg, (10)
Warburg continued to develop the hypothesis experimentally, and held several prominent lectures
ootliiniiiing the theory and the data. [in
The concept that cancer ceWs switch to farmemtatiiQmi in tieu of aerobic respiraftMum has become widely
accepted, even iff it is not seen as the cause of cancer. Some suggest the Warburg phenomenon could be
used to develop anticancer drugs.1121 IMeanwhile, cancer cell glycolysis is the basis of positron emission
tomography (18-FDG PET), a medical imaging technology that relies on this phenomenon. [121(13]

STATE OF FLORIDA
FLORIDA BOARD OF PROFESSIONAL ENGINEERS
FLORIDA BOARD OF PROFESSIONAL
ENGINEERS,
Petitioner,
v.

FEMCCaseNo. 2016029320

JOSEPH GILBERT! P E.,
Respondent,

DQAHCaseNo. 17-3257PL

Modified Motion to Vacate Order of Lifting Abeyance and Request Judge Johnston Recuse
himself for Conflict with tins US Drinking Water Resource, FPL and Duke-Progress
Eeecgj Faser Csrpsrafcss sed Israel Mosaic Phosphate in West Florida

COMES NOW, the Respondent JOSEPH GILBERT! pursuant to Section 120.57, Florida Statues answers
the alegpd complaint by Petitioner. FEMC on behalf of Florida Board of.Engineers comptaint tiled to Mde
Unis World and US Resraumce form THE PEOPLE usmig Temrcmst acts wife FPL, Drake Power Corps., Tamnpai
16® Samasofa Jodies, Mice Officers across Florida, New Yofk -and Boston, Gov Scott, Pam Bondi, Obama,
Members ofCongress and Florida Leaders with Hillsborough County Judiciary, Sarasota Judiciary, Mosaic
Phosphate and other to be included as part of ongoing cases in Florida, US Middle District Florida and
Geranjpa Courts as related to Water Wars and US Natural Resources hidden by US Colleges such at FSLL
UF„ USF, UM, USF, Notre Dame, Yale, Harvard, Morffowestteim Uuivensity and various Medical
Uni versifies .across America, UN, EPA and NASA.
Reasons to Reinstate Order are as follows:
L The Petitioner, tikd a complaint ia house Srauawing with full notification, trace Gmail! accomii is
ofirtoiimed ffiraanm the ISDN Gordie server in tfluc FUMroirmii^h FAKE Ominal case need agim to
kidnap Engineer Joe Gilbert! to hide the Resource.

2. The current Hillsborough case involves Chris Shaw an ex-public defender who was working on the
Karl Brooks case that Gilhati was forced to plead Guilty under duress and the outcome of die
ewest ease will result in a Civil RICO that becomes Criminal as Karl Brooks and Chris Shaw with
Tampa District 13, wofked with Mosaic, Greenberg Traurig, corrupt leaders, Mosaic Phosphate,
Duke Energy and FPL to kidnap Gilbert! with Sheriff Gee, Pam Bondi and Mark Ober, and now
Andrew Warren State Attorneys.
3. Ehe Karl Brsso&s, case wS Ere reversed! since we- actually gat a Police report as that case ram liammfatm
with the Greenberg Case involving Dave Weinstein die Chief Council of Mosaic Phosphate mast
to our property offering $500,000,000 to hide it from THE PEOPLE!

4. Public Service commission complaints on FPL, Duke Energy and more were filed in 2012 by others
PSC Complaints 05400-0 and 02424-0 with Gilberti Water supply7 documents attached at fe
same time Date and Progress Energy were assessing Sl-SHltam tto dean tip a STULL EMOTIIINIG
TNtaflear Power pDamt Stm Crystal River wBmkdlii ace tie Headwaters of HiisHramanu^lii River pmnpnog
65MGD of Radioactive Water to the Tampa Region to fill Moffitt cancer centers and USF Cancer
Grants.
5. Jas^LawoM3eJoSiins&iini in Ok case is in Conflict with THE PEOPLES resource in tihathe is fril
aware based <ram Hfe cases INDUCE OF EV1HiE ofPower arndW. advantages this Resource©
gives millions of Floridians from Tampa to Miami as shown in case below:
Admiinlstiratme Law Judge 1 Lawrence Johnston will conduct a hearing to consider the
etmiironimmOall effects mod any other apgmpriiate matters regarding whether to appmawe the
site mrtfffiimttfim offthe proposed Progress Energy Flbriirfa, ILeny IMiudlmr Plant Units 1 and 2„
application for site certification number PA08-51, DOAH Case number 08-2727EPP, DEP Office
off General Counsel Cose IMumher 08-1621, (pursuant to the Florida Electrical Power Bant
Siting ML Sections 4UBSJJ1S18, Florida Statutes....
Meriting: hearing
Contact: Mr. Michael P. Halpin, P.E., Marjory Stoneman Douglas Building, 3900

Commonwealth Boulemird, MS. 48, Tallahassee, Florida32399-3000, (8S0}24S-2m7.
6.

Engineer Gilbert! submitted FDEP application to TaHlahassee RevoMug fund to Maijorie
Stoneman Douglas Building on Jan 31, 2018 via email to build phase 1 pipe and suddenly the
School «s drat up with an AR-15 at Parkland Marjorie Staeman Building days later, very similar
to fte Boston Bomb case where Gilbert! sent an FDEP email of Hershall Vinyard as stated below
and Das hound with Chris Shaw and Karl Brooks went from $500 to $300,000 and put in a Hole for
268 days while Sarasota District 12 attacked the land with many Leaders, Judges and Lawyers in
the Region for Mosaic, FPL, Duke, PRECO, Nestle and many more we will show in Civil RICO
to these Coops and Individuals.

1. A samnemt Trustee Bond at OS Middle 3Ss®nrct Florida via
9tWbfc-14*$2-PMD to sniffifeein
Henderson Franklin and Grey Robinson Law for US Treason and Genocide worth $50miIIion is
being sued by Gilbert! and others to expose all this Corruption by Florida Judges, State Attorneys
and larit^ corps Wdirg Americas Nol Resource for National Defense and Healthcare. This case is
mow asking for ALL Engineer Gilberti land and lien cases that draws this Board ofErgjinefflr&, Gov
SertCt, ’Flcrrkfa Leaders and FDEP timed all fear Motions arid cases around 11$ Terrorism tto kidnap
Engineer Gilberti and attack his License with FEMC, Board of Engineers, Jon Rimes, Wendy
Anderson and Tampa to Ft Myers Judges and US Middle District, its Appeal Judges and more.
They want to stop all penniliiiig as all the Civil Engineers in the State of Florida working at
Murndpalllies are Muffing it with fenr Camfimniig Service Connsmfcnntefrryrars.

8. Tap Water is based on Cancer Rates and Medicaid Fraud Gov Scott is taking pictures with my
missing Cad Tech Rob Stonge below, before and alter the Boston Tenor attack that raised my
bond reftroacttivdly with a Leon County Torch Rum with FDEP Hershall Vinyard. See EPA Health

Advisories and common sense that Treated Water is less healthy and more expensive to the Tap
than Endless Free Alkaline Miraesal Spring Water. Humans Hake in a liter of Water in the SOmwott
wfare Medicaid Franod Tmunnmipi. Otanm, Florida Hcspiaill Braids and Media Hide das US
TERRORISM: witffln all Tampa to Miami Jomilgzs,, £ei^in»rarnin^I:3iniiii)S'«i«ni&Sniig^iir]MIiiiiiiimcngiGsiI9(taiesaBinid
theEPA!

RoibSfaiinpeiBlliciniDgdlEpiisMwfaBWDntefiomCMieiidptaffiaoi^
times, to testify on. aJ,I. said issues of Corruption, against THE US PEOPLE on this. Water Supply!.

This FDEP Email was sent 5hrs before the Boston
Bmnmto ami smaSiaiDlly CSifceitffi is SrikritajipBill % Itaira Beau® and Otanra im Dhtokfi: 13 willlhi
fJwniiwpEzi and
Judge Conrad with Mark Oher and a. slew of State Attorneys, and Public Defenders.

t-

9. Why is President Trump with Trump ICE Bottled Water, EPA, NASA and all Florida Leaders,
Media-and-FDEP-hiding -thisTJS Resource with the ■Florida Board of Engineers. Admmistrative
Law Judges and all Florida Cops and Firemen in our American FACES to kill our Onldretni and
Pens min Crneer Rates alt doe Tap wife) Hospitals sttealinng; MedicaM fees miidii LOW LEVEL OF
SERVICE Raw Water drimferaag lesraumces annttmnin® Araanmc faarn Groaandssaiter amd Rihws
polluted by Israel Mosaic Phosphate and their Political Mining Compacts from Tampa to Ft Myers?

r

403.851 Declaration of policy; intent.-It is the policy of the state that the citizens of Florida shall
be arawred of the arrfafcffity of sate dhiinHwg water, fltaongmlziirg that Urns pdfiity eraaOTTpaissES Ml

ernimnraMl

puiMiic Iteailttl aspsdis, St iis tdte

of tie tfigaiatuaie tto ipmowralte a

operated jointly by the department, in a lead-agency role of primary responsibility for the program, and by
the Department of Health and its units, including county health departments, in a supportive rote with specific
dtuflKS

irespomsIMBties of its own. HMmut any retapiUment of FllinrwSa’s sonwragra powers aural

rasprnirsiiHliiljiesllffl

puiWt wettflame off tie people off Fttmriidtai, tie

Legislature intends:
(1) To give effect to Pub. L No. 93-523 promulgated under the commerce clause of the
ItaStedl states Cumsta&uttinm,, to tte

that imitteiT5talleamimmBisdiirefl%affl

m
enforcement rote, but also hr their service and assistance roles to city and county elected
bodies.
Pj To pmwMg fear safe drinfciing

at all times ttunougliM: the state, writl due negpntfi

ftnr fflasmniiTitfc faQtems amt efftioaiigy ini gawemmanit.
History.—s. 2, ch. 77-337; s. 162, ch. 79-400; s. 425, ch. 94-356; s. 164, ch. 99-8.

With this information above we ask that Judge Lawrence Johnston and all Florida Board of
Engineer Members turn themselves in Ear US Treason and that Judge Lawrence Johnston recuse
himself firm this ease ami tuna evidence fertile US People IMMEDIATELY?
I HEREBY CERTIFY that a true and correct copy of the above information and Motion has been
furnished to the Petitioner, Board of Engineers at 2639 North Monroe Street, Suite B-l 12, Tallahassee,
Fferidas 32303, related cases involving US Terrorism. School Boards. Federal Bureau of Investigatfea,
Haea! Police Stations across America, FDEP and the White House via email and court docket clerk on this
Midday of March. 2018.

Respectfully submitted.
floe (fliMenti
Joseph D. Gilbert!. Jr_ PE

Florida PE No. 56079
LandTech Design Group, Inc.
385 Donora Blvd
Ft Myers Beach, Florida 33931
813-470-6000
gilberti .water .company.fla@gmail .com

